Department of Homeland Security
   Ofﬁce of Inspector General

                         DHS’ Role in Nominating 

                      Individuals for Inclusion on the 

                   Government Watchlist and Its Efforts to 

                      Support Watchlist Maintenance 



                        SENSITIVE SECURITY INFORMATION




                        SENSITIVE SECURITY INFORMATION

WARNING: This report contains Sensitive Security Information that is controlled under 49 C.F.R. Parts 15
and 1520. No part of this record may be disclosed to persons without a "need to know," as defined in 49
C.F.R. Parts 15 and 1520, except with the written permission of the Administrator of the Transportation
Security Administration or the Secretary of Transportation. Unauthorized release may result in civil penalties
or other action. For U.S. Government agencies, Public disclosure governed by 5 U.S.C. 552 and 49 C.F.R.
Parts 15 and 1520.




OIG-11-107                                                                          September 2011
                                                                                          (Revised)
                                           SENSITIVE SECURITY INFORMATION

                                                                                             Office ofInspector General

                                                                                             U.S. Department of Homeland Security
                                                                                             Washington, DC 20528




                                                                                              Homeland
                                                                                              Security
                                      September 6, 2011
                                                                Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of J 978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the DHS watchlisting process. It is
based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                                    O~C)Vv\~~
                                                     Carlton 1. Mann
                                                           Assistant Inspector General for Inspections




                                           SENSITIVE SECURITY IJIoIFORM,.HION

WAR)J[J>JG: This ri!8BFEI e8nlaills gtlllsili"e SeellFil)' lIdeffilaliBR that is eaBu:elleEll:tllBi!F 49 G~R, !!B1ts 15 !lnElIS2:0.
i>ls !'leFt !lHkis Fe8BFEllfla)' !:Ie ais81BseEi la J'lElFSBI1S witkEll:t1 !I "Aeee la Imew" !IS eElIilli!i1 ill 49 GAA "'!lFls 15 aRe 1520,
ellee",t wilh Ike wrillen !'lermissiefl afllle.AElRlitHstF!l18F eftke THHls!'leFtatiBfl Seel:tfil)' ,cI,alfHnislratiell SF tile gei<welElry
e+-+mRSpeFletisn. Yn!l~ofBle!l5e fll!l)' FesHlt in ei\'ill'len8lIy er eHler !leliaA. per H.g. gs'.'emmenl egeAcies,
J3!1a.1ie eis81esl:tre is ge'i'erAi<JEI!:Iy 5 U.8.G. 552 aAEI 49 GFR ",arts 15 !I!l~
                                         SENSITIVE SECURITY INFORMATION


Table of Contents/Abbreviations

Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................3
 


Results of Review ..............................................................................................................18
 


     DHS Efforts to Contribute to Nominations and 

     Maintenance of External Government Watchlist Information.....................................18 


     Processes for Nominating Individuals for Inclusion on the

     Government Watchlist Need More Standardization ....................................................28

     Recommendations ..........................................................................33, 36, 38, 41, 44, 47

     Management Comments and OIG Analysis ..................................33, 36, 38, 42, 44, 48


     Although the Watchlisting Cell Adds Value, Timeliness and 

     Quality Challenges Remain .........................................................................................49

     Recommendations ......................................................................................52, 53, 54, 57

     Management Comments and OIG Analysis ....................................................52, 54, 57


Appendices
     Appendix A: Purpose, Scope, and Methodology ........................................................58

     Appendix B: Recommendations .................................................................................60

     Appendix C: Management Comments to the Draft Report ........................................62

     Appendix D: U.S. Government Nomination Process as

                  Outlined in the Watchlisting Guidance ..............................................68
 

     Appendix E: DHS Watchlisting Cell Nomination Process .........................................69
 

     Appendix F: Major Contributors to this Report..........................................................70
 

     Appendix G: Report Distribution................................................................................71
 


Abbreviations
     CBP                   U.S. Customs and Border Protection 

     CLASS                 Consular Lookout and Support System 

     DHS                   Department of Homeland Security 

     E.O.                  Executive Order           

     FBI                   Federal Bureau of Investigation 

     FDNS                  Fraud Detection and National Security Directorate 

     HIR                   Homeland Intelligence Report           

     HSI                   Homeland Security Investigations Directorate 

     HSPD                  Homeland Security Presidential Directive 


                                         SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520. 

No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, 

except with the written permission of the Administrator of the Transportation Security Administration or the Secretary 

of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, 

public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520. 

                                    SENSITIVE SECURITY INFORMATION



    I&A                 Office of Intelligence and Analysis
    ICE                 U.S. Immigration and Customs Enforcement
    IDENT               Automated Biometric Identification System
    JTTF                Joint Terrorism Task Force
    NCTC                National Counterterrorism Center
    NTC-P               National Targeting Center-Passenger
    ODNI                Office of the Director of National Intelligence
    OIG                 Office of Inspector General
    OMB                 Office of Management and Budget
    SOP                 standard operating procedure
    TIDE                Terrorist Identities Datamart Environment
    TSA                 Transportation Security Administration
    TSC                 Terrorist Screening Center
    TSDB                Terrorist Screening Database
    USCG                U.S. Coast Guard
    USCIS               U.S. Citizenship and Immigration Services
    US-VISIT            U.S. Visitor and Immigrant Status Indicator Technology
    WLC                 Watchlisting Cell




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.
                                    SENSITIVE SECURITY INFORMATION




OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                             The Department of Homeland Security has opportunities to interact
                             with, observe, and gather information from individuals seeking to
                             enter the United States. Such information could contribute to
                             external U.S. government watchlisting efforts, which are used to
                             inform the federal government’s interaction with U.S. citizens and
                             foreign nationals. We reviewed these activities for seven
                             department components to determine whether effective processes
                             and standards exist; whether information the department collects and
                             disseminates to federal partners is relevant, timely, and accurate; and
                             which external federal departments and agencies receive
                             component-generated information.

                             Although the department is predominantly a consumer of watchlist
                             information, all seven components contribute to nominating
                             individuals and to enhancing and maintaining watchlist
                             information. The department recently established a Watchlisting
                             Cell to serve as the central coordination point for all department
                             nomination and maintenance efforts.

                             As the cell further refines its operational capabilities, it is
                             necessary to develop guidance, provide advanced analysis, and
                             ensure that departmental efforts do not contradict current
                             component interactions with federal watchlisting entities. The
                             Watchlisting Cell has demonstrated value and is streamlining
                             processes in collaboration with department components. The
                             department’s most significant contribution to the watchlisting
                             community is the collection and analysis of encounter packages.
                             This information is critical to enhancing existing watchlist
                             database records; however, quality and legibility issues exist with
                             how this information is currently collected. The Watchlisting Cell
                             should ensure that its resources are sufficient to provide relevant,
                             accurate, and timely information to internal and external
                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                        Page 1 

                                    SENSITIVE SECURITY INFORMATION



                             watchlisting partners. We are making ten recommendations to
                             improve the department’s contributions to the federal
                             government’s watchlisting process.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance
 


                                                        Page 2 

                                    SENSITIVE SECURITY INFORMATION



Background
                             The                                  created the U.S. Intelligence
                             Community to be a federation of Executive Branch agencies and
                             organizations that work separately and together to perform
                             intelligence activities necessary to conduct foreign relations and to
                             protect the national security of the United States.1 Executive
                             Order (E.O.) 12333, as amended, defines the goals and direction of
                             U.S. intelligence efforts and describes the roles and responsibilities
                             of individual Intelligence Community elements. 2 The Intelligence
                             Community is defined by the                           , as amended,
                             and E.O. 12333 to include 16 executive-level elements with
                             oversight provided by the Office of the Director of National
                             Intelligence (ODNI). 3

                             The Department of Homeland Security (DHS), which was created
                             by the                                   , has two Intelligence
                             Community members: the Office of Intelligence and Analysis
                             (I&A) and the U.S. Coast Guard (USCG) National Intelligence
                             Element. 4 The                             emphasizes the need for
                             timely and effective information sharing processes as a means of
                             safeguarding national security. Furthermore, the
                                                 for FY 2003 established the 9/11 Commission to
                             investigate the facts and circumstances leading to the September
                             11, 2001, terrorist attacks. 5 As a result, the Commission made
                             additional recommendations concerning the need for increased
                             information sharing and collaboration across the federal
                             government.

                             Most notably, in a 2004 Staff Report, the Commission highlighted
                             multiple opportunities in which the 9/11 terrorist plot could have
                             been disrupted. The Commission determined that the hijackers had
                             previous contact with immigration and customs authorities 43
                             times, and entered the United States 33 times over 21 months

1
  50 U.S.C. § 401 et seq. [hereinafter referred to as the                  ].
2
  Executive Order 12333, as amended [hereinafter referred to as E.O. 12333].
3
  50 U.S.C. § 401a (4) and E.O. 12333 § 3.5 (h).
4
  6 U.S.C. § 101 et seq. [hereinafter referred to as the                    ].
5
  See generally Public Law 107-306, as amended; and 6 U.S.C. § 101 note.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                        Page 3
                                    SENSITIVE SECURITY INFORMATION



                             through nine different ports of entry. 6 At least three hijackers
                             carried passports with indicators of extremism linked to al Qaeda.
                             The Commission concluded that these interactions with
                             government officials represented missed opportunities. In light of
                             these findings, it is imperative that DHS components collect and
                             analyze relevant, timely, and accurate information as well as
                             disseminate this information to external government partners.

                             As part of its mission, DHS personnel have opportunities to
                             interact, observe, and gather information from individuals seeking
                             admission to the United States. For example, on a daily basis U.S.
                             Customs and Border Protection (CBP) processes nearly 1 million
                             travelers entering the United States; U.S. Immigration and
                             Customs Enforcement (ICE) houses 33,429 illegal aliens in
                             detention facilities nationwide; the Transportation Security
                             Administration (TSA) screens approximately 2 million passengers
                             and their baggage; the USCG manages 3,500 commercial vessel
                             transits through the marine transportation system; and U.S.
                             Citizenship and Immigration Services (USCIS) processes 24,371
                             applications for immigration benefits. 7 Information gathered by
                             DHS components when fulfilling these duties could be used to
                             protect national security. In particular, such information could
                             contribute to nominating individuals and maintaining data
                             contained in various external U.S. government databases, which
                             are used to inform the government’s interaction with U.S. citizens
                             and foreign nationals.

                   External Federal Government Watchlisting Partners
                             Throughout the federal government, there are multiple databases
                             used to protect against potential threats to national security. Some
                             databases contain law enforcement information related to criminal
                             offenses, while others contain intelligence information collected on
                             known or suspected terrorists and their associates. Although DHS
                             is a major consumer of information contained within multiple

6
                            , Staff Report of the National Commission on Terrorist Attacks Upon the United
States (August 21, 2004). See Preface and p. 7.
7
  “A Day in the Life of the Department of Homeland Security,” DHS Office of Public Affairs, February 28,
2011.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                        Page 4
                                    SENSITIVE SECURITY INFORMATION



                             external criminal and terrorist databases, it is also necessary for the
                             department and its components to support federal partners by
                             contributing to the watchlist nomination and maintenance process.

                             The content, completeness, and relevance of many databases
                             depend on the ability of federal departments and agencies to collect
                             and analyze derogatory information and nominate individuals for
                             inclusion on specific lists. Some examples of relevant systems
                             include the National Counterterrorism Center’s (NCTC) Terrorist
                             Identities Datamart Environment (TIDE), which is an aggregate of
                             information that contains both the identifying and substantive
                             derogatory information on known or suspected international
                             terrorists; the Terrorist Screening Center’s (TSC) Terrorist
                             Screening Database (TSDB), which is the U.S. government’s
                             consolidated watchlist of all known or suspected terrorists; and the
                             State Department’s Consular Lookout and Support System
                             (CLASS), used primarily as a name-checking system to screen all
                             U.S. visa and passport applicants.

                             Role of the Office of the Director of National Intelligence in
                             Watchlisting

                             The
                             created the Director of National Intelligence to serve as the head of
                             the Intelligence Community. 8 Furthermore, the Director shall lead
                             a unified, coordinated, and effective intelligence effort. 9 In
                             accordance with this act and E.O. 12333, the Director functions as
                             the principal adviser to the President, National Security Council,
                             and the Homeland Security Council 10 for intelligence matters
                             related to national security and manages the National Intelligence
                             Program budget. 11 The goal of the ODNI is to integrate foreign,



8
  50 U.S.C. § 403 (b)(1).
9
  E.O. 12333 § 1.3.
10
   In May 2009, the Homeland Security Council was integrated into the National Security Council,
although as of March 2011 there has been no subsequent change in legislation or executive order to reflect
its re-designation.
11
   The National Intelligence Program funds intelligence activities in several federal departments and the
Central Intelligence Agency. Detailed funding requests for intelligence activities are classified.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                        Page 5
                                    SENSITIVE SECURITY INFORMATION



                             military, and domestic intelligence in defense of the homeland and
                             of U.S. interests abroad.

                             Within the ODNI, the NCTC was established by E.O. 13354 and
                             codified by the
                                    to implement a key recommendation of the 9/11 Commission.
                             This recommendation called for the NCTC to serve as a center for
                             joint operational planning and intelligence.12 This act further
                             directed that the NCTC will be the central and shared knowledge
                             bank on known and suspected terrorists and international terror
                             groups, as well as their goals, strategies, capabilities, and networks
                             of contacts and support. The NCTC serves as the primary U.S.
                             government organization for analyzing and integrating all
                             intelligence possessed or acquired by the U.S. government
                             pertaining to terrorism and counterterrorism.13 However, the tasks
                             of collecting and analyzing intelligence pertaining exclusively to
                             domestic terrorists and domestic counterterrorism investigations, fall
                             primarily under the purview of the Federal Bureau of Investigation
                             (FBI). 14



                                      For example, DHS provides detailees and liaisons from
                             CBP, USCG, USCIS, TSA, and ICE. 15 Within the NCTC, the
                             Terrorist Identities Group is responsible for maintaining TIDE, the
                             central repository of information on international terrorist
                             identities. TIDE is a classified database that includes, to the extent
                             permitted by law, all identifying and derogatory information that




12
   See                                                                                                , at p. 403.
13
   50 U.S.C. § 404o (d) (1).
14
   E.O. 12333 § 2.3 (e).
15




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                        Page 6
                                    SENSITIVE SECURITY INFORMATION



                             the U.S. government possesses related to known or suspected
                             terrorists. 16

                             TIDE also serves as the authoritative database supporting the U.S.
                             government’s watchlisting system. Homeland Security
                             Presidential Directive-6 (HSPD-6) requires the NCTC to provide
                             the TSC with access to all appropriate information or intelligence
                             in its possession that the TSC needs to perform its functions. 17 As
                             a result, the NCTC provides the TSC with a sensitive but
                             unclassified subset of TIDE and access to TIDE Online, a read-
                             only copy of the database.




                                                                                As of March
                             2011, TIDE contained more than 640,000 persons. 18 However, not
                             all of these records correspond to separate and distinct “identities.”
                             The use of aliases and name variants results in a larger number of
                             records than separate identities, because TIDE is a name-based
                             system. Only a small percentage of TIDE records concern U.S.
                             citizens and legal permanent residents.


16
   Homeland Security Presidential Directive-11 defines “suspected terrorists” as “individuals known or
reasonably suspected to be or have been engaged in conduct constituting, in preparation for, in aid of, or
related to terrorism.”
17
   HSPD-6,                                                                            (September 16, 2003).
18
   TIDE Fact Sheet, NCTC website, accessed April 4, 2011.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                        Page 7
                                    SENSITIVE SECURITY INFORMATION



                             After the conclusion of our fieldwork with the NCTC, ODNI
                             officials informed us that the NCTC has now implemented TIDE 2
                             to support U.S. government watchlisting efforts. Unlike its
                             predecessor TIDE, TIDE 2 uses a person-centric construct rather
                             than the original identities construct.

                             Role of the Department of Justice’s Federal Bureau of
                             Investigation in Watchlisting

                             HSPD-6 also instructed the U.S. Attorney General to establish an
                             organization to consolidate the government’s approach to terrorism
                             screening and to provide for the appropriate and lawful use of
                             terrorist information in screening processes. To implement the
                             directive, the Attorney General—acting through the Director of the
                             FBI, and in coordination with the Secretary of State, Secretary of
                             Homeland Security, and the Director of Central Intelligence—
                             created the TSC. 19

                             The TSC Director is appointed by the Attorney General, in
                             consultation with the FBI, DHS, Central Intelligence Agency, and
                             Department of State. The Director reports to the Attorney General
                             through the Director of the FBI. A senior DHS official serves as
                             the Principal Deputy Director. The TSC is staffed with employees
                             from the various federal departments and agencies it supports.


                                             Those authorized to be assigned from DHS to the
                             TSC include staff from USCG, ICE, CBP, TSA, USCIS, I&A,
                             U.S. Secret Service, and the Office of the General Counsel.

                             The TSC maintains the TSDB, which is populated with
                             “information about individuals known or appropriately suspected
                             to be or have been engaged in conduct constituting, in preparation
                             for, in aid of, or related to terrorism…” 20 All information
                             contained within the TSDB is sensitive but unclassified, so the
                             broadest range of federal, state, local, and international terrorist

19

           , Appendix 3 of the                            .
20
     HSPD-6,                                                                                   (September 16, 2003).

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                        Page 8
                                    SENSITIVE SECURITY INFORMATION



                             screening partners can benefit from using various screening
                             systems and data subsets derived from the TSDB and exported by
                             the TSC. The term “export” describes the transfer of record
                             information from one database to another. Although the TSDB is
                             the U.S. government’s consolidated terrorist watchlist, all
                             information in the TSDB is derived from two sources. The only
                             source for TSDB information relating to international terrorist
                             identities is TIDE. The remaining information in the TSDB pertains
                             solely to domestic terrorism information. This information is
                             provided to the TSC directly from the FBI’s Automated Case
                             Support system, which contains additional supporting information
                             on domestic terrorists, beyond any biometric and biographic
                             identifiers exported to the TSDB.

                             There are minimum substantive derogatory and identifying criteria
                             for inclusion in the TSDB. The TSC reviews each nomination to
                             ensure that it meets the watchlisting standards before creating a
                             TSDB record. Although TIDE may accept nominations that do not
                             fully meet the identifying criteria, the record will not export to the
                             TSDB unless both minimum criteria are met.

                             As the U.S. government’s consolidated terrorist watchlist, the
                             TSDB also exports data used in other screening systems and data
                             subsets. These include, but are not limited to, the following:

                                        No Fly and Selectee Lists;
                                        TECS; and
                                        CLASS.

                             Some of these systems have their own minimum criteria or
                             restrictions for inclusion, which may differ from TSDB
                             requirements.




                                                                          Many other federal
                             law enforcement agencies also use TECS as a screening and case

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                        Page 9
                                    SENSITIVE SECURITY INFORMATION



                             management system. CLASS, enhanced by law enforcement and
                             national security information, is used primarily as a name-checking
                             system to screen all U.S. visa and passport applicants.




                                                                                  Encounters
                             can provide additional information to enhance current watchlist
                             records.

                             In addition to notifying the TSC, DHS field components notify the
                             FBI’s Joint Terrorism Task Force (JTTF) of an encounter. JTTFs
                             operate in approximately 106 cities nationwide and are composed
                             of highly trained, locally based investigators, analysts, and other
                             specialists from dozens of U.S. law enforcement and intelligence
                             agencies. This multiple-agency effort, led by the Department of
                             Justice and the FBI, is designed to promote information sharing to
                             combat terrorism on a regional scale by combining federal, state,
                             and local law enforcement resources. Four DHS components,
                             CBP, ICE, U.S. Secret Service, and the Federal Protective Service,
                             are full-time members of JTTFs, and other DHS components
                             provide detailees and liaisons as requested. At headquarters, DHS
                             is also involved in the National JTTF, which coordinates the
                             efforts of the JTTFs and serves as an integrated force to combat

21
                           , July 2010, Appendix 1.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 10
                                    SENSITIVE SECURITY INFORMATION



                               terrorism on a national and international scale, with approximately
                               40 departments and agencies represented.

                               Role of the Department of State’s Bureau of Consular Affairs
                               in Watchlisting

                               In addition to TIDE and the TSDB, the Department of State uses
                               an unclassified database called CLASS. It is a name-checking
                               system used to screen visa applications for travel to the United
                               States. A visa allows a foreign national to travel to a U.S. port of
                               entry to request admittance into the country. Consular officers
                               abroad use CLASS to screen the names of all U.S. visa and
                               passport applicants against information forwarded to CLASS from
                               a number of government databases.

                               The central mission of the Department of State’s Bureau of
                               Consular Affairs is to protect the lives and interests of American
                               citizens abroad and to strengthen the security of U.S. borders
                               through the vigilant adjudication of visas and passports. Another
                               of its major duties is to administer the provisions of the
                                                                 , as amended, and all other
                               immigration and nationality laws relating to the powers, duties,
                               and functions of U.S. diplomatic and consular officers. 22




22
     8 U.S.C. § 1101 et seq.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

               DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                 Its Efforts to Support Watchlist Maintenance

                                                       Page 11
                                    SENSITIVE SECURITY INFORMATION




                             As outlined in formal agreements between DHS and the
                             Department of State, information from TECS is updated to CLASS
                             in real-time for future use in adjudicating visa and passport
                             applications. In addition, Bureau of Consular Affairs personnel
                             have been detailed to CBP headquarters as well as to CBP’s
                             National Targeting Center-Passenger (NTC-P) to perform duties
                             related to the watchlisting process. Through its NTC-P, CBP
                             screens passenger manifests and related information prior to a
                             passenger’s departure to or from the United States. The NTC-P
                             has an important role in analyzing, assessing, and making
                             determinations of travel suitability based on TIDE, the TSDB, and
                             other relevant intelligence and law enforcement information.

                             The Bureau of Consular Affairs works with other DHS component
                             personnel at headquarters and at posts overseas. This relationship
                             is demonstrated by ICE personnel assigned to foreign missions.
                             The                            authorizes DHS’ Secretary to assign
                             department employees to each diplomatic and consular post at
                             which visas are issued. 24 DHS accomplishes this through its Visa
                             Security Program. Under the Visa Security Program, ICE attachés
                             are responsible for conducting security reviews of visa
                             applications. They review specific applications on their own
                             initiative or when requested by a consular officer or other person
                             charged with adjudicating such applications. ICE attachés also
                             provide expert advice and training to consular officers regarding
                             specific security threats related to the adjudication of visa
                             applications.

                             Following the 1993 World Trade Center bombing, the Department
                             of State directed consular offices to form Visa Viper committees to

23
   When a Security Advisory Opinion request is received, the Bureau of Consular Affairs Visa Office, in
conjunction with the TSC, confirms that the identity of the applicant matches the TSDB and underlying
TIDE record. Once the individual’s identity is confirmed, the Visa Office reviews the derogatory
information on the individual, if any, and advises the consular officer regarding visa eligibility based on the
                                  , as amended, as it relates to terrorism (8 U.S.C. § 1182(a)(3)(B)(i)).
24
   6 U.S.C. § 236 (e).

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 12
                                    SENSITIVE SECURITY INFORMATION



                             ensure that the names of known or suspected terrorists are
                             forwarded to domestic partners from overseas posts. All
                             appropriate department and agency representatives at a foreign
                             post, including ICE attachés, make up the Visa Viper committee.
                             In addition, the information forwarded by these committees can
                             result in nominations to TIDE and the TSDB.

                             The inter-agency procedures for Visa Viper were codified in the
                                                                                             , as
                             amended. 25 Visa Viper committees are required by law to meet
                             once a month and to use the cooperative resources of all elements
                             of a U.S. mission to identify known or potential terrorists and to
                             develop information on those individuals. The committees are also
                             responsible for bringing this information to the attention of U.S.
                             officials, and ensuring that the names of known or suspected
                             terrorists are entered into the appropriate lookout databases.




                    Evolution of Federal Watchlisting Guidance
                             In July 2008, the TSC Policy Board Working Group began
                             revising the substantive derogatory criteria required for nominating
                             known or suspected terrorists to the TSDB. In February 2009, the
                             Office of the Deputy Attorney General published the new criteria
                             in a document titled the
                                          . Specifically, the Protocol contained an appendix
                             identifying the minimum substantive derogatory criteria for
                             acceptance of known or suspected terrorist nominations into the
                             TSDB.

25
     8 U.S.C. § 1733.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

               DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                 Its Efforts to Support Watchlist Maintenance

                                                       Page 13
                                    SENSITIVE SECURITY INFORMATION




                             In response to the December 25, 2009, attempted terrorist attack on
                             Northwest Flight 253, the President issued a “corrective actions”
                             memorandum that directed the TSC’s Interagency Policy Board
                             Working Group to develop recommendations for changes to the
                             Protocol. The changes were formally approved by the National
                             Security Council and the Homeland Security Council Deputies
                             Committee on May 25, 2010. The TSC issued this document,
                             titled the                      , on July 16, 2010.




                             The                         was created to help departments and
                             agencies standardize watchlist nominations and screening
                             decisions. One of the most significant changes to the July 2010
                                                    includes the addition of Appendix 6,
                             “Guidance Regarding Encounters Management with a Watchlisted
                             Known or Suspected Terrorist and Encounter Information
                             Exploitation.”

                                                                               Other areas
                             covered in the                        include terrorist nomination
                             procedures, types of records in TIDE, the TSC’s automated file
                             intake process, the standard nomination tool, expedited nomination
                             procedures, and removal and redress procedures.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 14
                                    SENSITIVE SECURITY INFORMATION



                             Section XVII of the July 2010                             describes
                             additional roles and responsibilities for the watchlisting and
                             screening community.




                             This section of the                        led DHS to establish a
                             central point of contact for nominations within the department.

                   Establishing DHS’ Watchlisting Cell
                             Prior to the July 2010                         , DHS did not have a
                             central point of contact for coordinating watchlist nominations. To
                             meet the additional responsibilities outlined in the guidance, in
                             December 2010 I&A established the department’s Watchlisting
                             Cell (WLC) to coordinate and submit DHS nominations and
                             enhance the watchlisting process. This role is consistent with
                             I&A’s mission to strengthen the department’s and its partners’
                             ability to perform homeland security functions by accessing,
                             integrating, analyzing, and sharing timely and relevant intelligence
                             and information, while protecting the privacy and civil rights/civil
                             liberties of the people they serve.




26
                           , July 2010, Section XVII, p. 24.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 15
                                    SENSITIVE SECURITY INFORMATION




                             The WLC plans to implement a consolidated terrorist nomination
                             process for DHS, as well as adhere to encounter management
                             guidelines contained in Appendix 6 of the                          .
                             In addition to serving as a central coordination point, the WLC is
                             intended to be the single DHS entity responsible for submitting
                             routine watchlist nominations to the NCTC for inclusion in TIDE
                             and passage to the TSC for inclusion in the TSDB, as appropriate.
                             As of March 2011, the WLC had drafted standard operating
                             procedures (SOP) outlining steps in the nomination process, use of
                             a standard nomination tool, and overall guidance to DHS
                             components.

                             All components are required to send their routine watchlist
                             nomination requests to the WLC to ensure consistency and enable
                             the review of all DHS holdings and equities, including biometrics
                             and immigration information, prior to final submission. In
                             addition, the WLC has begun to review and exploit encounter
                             packages and other documents provided by DHS components
                             during the watchlisting process. In exigent circumstances or
                             outside of WLC operating hours, DHS components will submit
                             expedited nomination forms directly to the NCTC and TSC with an
                             additional copy transmitted to the WLC.

                             Within DHS, several components submit nominations of
                             individuals for inclusion in TIDE and the TSDB, and other
                             components submit information to support, enhance, and maintain
                             nominations. We reviewed these activities for seven DHS
                             components to determine whether effective processes and
                             standards exist; whether information that DHS collects and
                             disseminates to federal partners is relevant, timely, and accurate;
                             and which external federal departments and agencies receive DHS-
                             generated information (see figure 1).




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 16
                                    SENSITIVE SECURITY INFORMATION



                   Figure 1: DHS Components Reviewed During OIG Fieldwork




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 17
                                    SENSITIVE SECURITY INFORMATION



Results of Review
         DHS Efforts to Contribute to Nominations and Maintenance of
         External Government Watchlist Information
                   Although DHS is predominantly a consumer of watchlist information, the
                   department contributes to nominating individuals for inclusion, and to
                   enhancing and maintaining information contained within federal
                   government databases. For example, CBP is the single largest contributor
                   of encounter information to external partners, and its NTC-P is CBP’s
                   central coordination point for these efforts. TSA, a major consumer of
                   information through TSDB subsets, such as the No Fly and Selectee Lists,
                   contributes independent analysis of transportation threat information.
                   Although efforts are under way to assimilate USCG personnel into NTC-P
                   operations, as of March 2011 USCG did not nominate individuals for
                   inclusion on external government databases. The Visa Viper committee
                   process provides ICE with a means to contribute nominations from
                   overseas posts, and information is shared domestically through the FBI’s
                   JTTF process.

                   In addition, multiple components contribute information through
                   Homeland Intelligence Reports (HIRs). 27 The department’s U.S. Visitor
                   and Immigrant Status Indicator Technology program (US-VISIT)
                   primarily supports departmental efforts through its biometric identification
                   service, and this program will provide increased support as DHS moves
                   toward a centralized process for watchlist nominations. Furthermore,
                   I&A’s involvement in the watchlisting process is primarily through the
                   WLC. The WLC is intended to serve as the central coordination point for
                   all routine DHS watchlisting efforts.

                             CBP Is the Largest Contributor of Encounter Information

                             CBP is one of the largest and most complex DHS components, with
                             a priority mission of keeping terrorists and their weapons out of the
                             United States. It also has responsibility for securing and

27
  HIRs contain information that has yet to be fully evaluated. An HIR could contain information related to
border encounters, information shared by a state or local fusion center, or other information of homeland
security interest.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 18
                                    SENSITIVE SECURITY INFORMATION



                             facilitating legitimate trade and travel, while enforcing hundreds of
                             U.S. regulations and immigration laws. Therefore, CBP personnel
                             have a major presence along the U.S. border and at established
                             ports of entry.

                             To fulfill its responsibility for immigration enforcement, CBP
                             collaborates and has a strong relationship with external
                             government partners, such as the ODNI, the FBI, and the
                             Department of State’s Bureau of Consular Affairs. In addition,
                             CBP contributes directly to information contained in the respective
                             databases of these federal entities. CBP achieves the collaboration
                             necessary to protect U.S. borders primarily through the operations
                             of its NTC-P.

                             The NTC-P was established as a 24/7 operations center to provide
                             advance targeting, research, and coordination among numerous
                             law enforcement and intelligence agencies in support of CBP’s
                             anti-terrorism mission. The NTC-P has a dedicated staff of Watch
                             Commanders, analysts, and support personnel who represent the
                             CBP air, land, and sea environments. These multiple-disciplined
                             experts are skilled in targeting inbound and outbound passengers
                             and conveyances. In addition, NTC-P operations are supplemented
                             by a group of dedicated analysts from CBP’s Office of Intelligence
                             and Operations Coordination. This office acts as a liaison to the
                             Intelligence Community and provides timely and relevant
                             information to the center.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 19
                                    SENSITIVE SECURITY INFORMATION




                             As a result of its border enforcement mission, CBP, and
                             particularly the NTC-P, are the largest contributors of encounter
                             information to TIDE and the TSDB.


                                                  In FY 2010, CBP contributed 72% of all
                             encounter information to the TSC (see figure 2).
                              Figure 2: CBP Contribution of Encounter Information




                                                                             28%


                                                                    72%




                             TSA Is a Consumer of TSDB Information and Provides
                             Independent Analysis of Transportation Threat Information

                             Within DHS, TSA is responsible for protecting the Nation’s
                             transportation systems to ensure freedom of movement for people
                             and commerce. TSA employs a risk-based strategy and layered
                             approach to secure U.S. transportation systems, working with
                             stakeholders in aviation, rail, transit, highway, and pipeline sectors
                             as well as partners in law enforcement and the Intelligence
                             Community. TSA collaborates with external federal entities such
                             as the ODNI, FBI, and the Department of State’s Bureau of
                             Consular Affairs. Relationships with these external government
                             partners are important not only for maintaining TSDB derivative

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and 

                                Its Efforts to Support Watchlist Maintenance


                                                       Page 20

                                    SENSITIVE SECURITY INFORMATION



                             databases such as the No Fly and Selectee Lists, but also for
                             establishing formal information sharing processes. TSA is
                             predominantly a consumer of TSDB information; however, its
                             Office of Intelligence provides additional independent analysis of
                             transportation threat information.

                             TSA’s Office of Intelligence identifies and shares information that
                             strengthens security procedures and stops attacks before they reach
                             the execution phase. Although this office focuses exclusively on
                             transportation threats, its efforts are also coordinated with the
                             broader Intelligence Community. Analysts and subject matter
                             experts within the TSA Office of Intelligence analyze classified
                             information gathered from Intelligence Community members
                             around the world. This information is provided to DHS senior
                             leadership to help anticipate potential threats and create specific
                             courses of action to counter these threats.




                             USCG Has Not Made Nominations to TIDE or the TSDB, but
                             Coordination Efforts with the NTC-P Have Increased

                             The USCG is a multiple-mission DHS component responsible for
                             safeguarding U.S. maritime interests in the heartland, in the ports,
                             at sea, and around the world. As the primary maritime law
                             enforcement entity in the United States, the USCG is tasked with
                             enforcing immigration laws at sea. Its personnel conduct patrols
                             and coordinate with other federal departments and agencies and

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 21 

                                    SENSITIVE SECURITY INFORMATION



                             foreign governments to interdict undocumented migrants and deny
                             entry via maritime routes.

                             The USCG conducts missions in coordination with other DHS
                             components responsible for immigration enforcement, such as
                             CBP and ICE, as well as with external law enforcement entities
                             such as the FBI. Although authorized to conduct law enforcement
                             operations, USCG intelligence elements are also members of the
                             broader Intelligence Community. 28 As such, they are granted
                             substantial collection authority under the law. 29 In addition, these
                             elements may serve both the specific information and intelligence
                             needs of the DHS Secretary and of the larger, integrated
                             Intelligence Community. 30




28
   E.O. 12333 § 3.5 (h)(15).
29
   E.O. 12333 § 1.7 (h).
30
   E.O. 12333 § 1.7.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 22 

                                    SENSITIVE SECURITY INFORMATION




                             After the end of our fieldwork, DHS officials indicated that USCG
                             personnel responsible for prescreening functions have collocated
                             with the NTC-P. This action was completed on March 15, 2011.

                             ICE Coordinates Nominations Through the Department of
                             State and Contributes Information Domestically to the FBI’s
                             JTTF Process

                             ICE is the principal investigative arm of DHS for criminal and
                             civil enforcement of federal laws governing border control,
                             customs, trade, and immigration. ICE is the second largest
                             investigative organization in the federal government. As such, ICE
                             maintains immigration records, biographical information, and
                             travel records on individuals as well as their known family
                             members and associates. These records are of value to external
                             government partners because they enable increased analysis of
                             travel related to known or suspected terrorists. As a result,
                             substantial inter-agency involvement already exists to facilitate
                             information sharing.

                             ICE Homeland Security Investigations Directorate (HSI)
                             investigates a wide range of domestic and international activities
                             arising from the illegal movement of people and goods into,
                             within, and out of the United States. Three principal entities
                             within ICE HSI contribute to nominations and maintenance of data
                             contained in external government databases: ICE HSI-
                             Investigative Programs, ICE HSI-Intelligence, and ICE
                             International Affairs.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 23 

                                    SENSITIVE SECURITY INFORMATION



                             ICE HSI national security investigations are often conducted with
                             the FBI and involve immigration crime, human rights violations,
                             smuggling of contraband, financial crimes, cybercrime, and export
                             enforcement issues. In addition, ICE special agents conduct
                             investigations to protect critical infrastructure industries that are
                             vulnerable to sabotage, attack, or exploitation. As a result, when
                             ICE personnel become aware of information related to a known or
                             suspected terrorist, they immediately direct this information to the
                             FBI through the JTTF process, as the FBI is the lead for all
                             domestic national security investigations related to terrorism.

                             In addition to ICE criminal investigations, ICE HSI oversees its
                             intelligence and international affairs functions. ICE HSI-
                             Intelligence collects, analyzes, and shares strategic and tactical
                             data for use by DHS and ICE leadership and operational units. It
                             also supports federal, state, local, tribal, and international law
                             enforcement partners. ICE International Affairs coordinates
                             investigations involving transnational criminal organizations and
                             serves as ICE’s liaison to counterparts in foreign law enforcement.
                             In addition, ICE International Affairs represents ICE with
                             international organizations, conducts international training, and
                             oversees the Visa Security Program. As a result, ICE International
                             Affairs coordinates nominations submitted by secure cable from
                             Visa Viper committees located at foreign posts.

                             ICE HSI-Intelligence provides support for domestic nominations
                             and encounters through the HIR process. HIRs contain raw
                             intelligence—encounters or other information of homeland
                             security interest that has not been corroborated by other sources—
                             rather than finished analytical products. HIRs are intended to
                             inform DHS components and external Intelligence Community
                             members of potential intelligence issues and are viewable by state
                             and local officials with access to classified networks.

                             USCIS Supports Information Requests from Law Enforcement
                             and Intelligence Community Elements

                             Within DHS, USCIS oversees lawful immigration to the United
                             States and is predominantly a consumer of information from

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 24 

                                    SENSITIVE SECURITY INFORMATION



                             external watchlist databases rather than a direct nominator. USCIS
                             provides useful information to federal partners such as the ODNI,
                             FBI, and the Department of State’s Bureau of Consular Affairs. It
                             also grants immigration and citizenship benefits, promotes
                             awareness and understanding of citizenship, and ensures the
                             integrity of the immigration system. Within USCIS, the Fraud
                             Detection and National Security Directorate (FDNS) determines
                             whether individuals or organizations filing for immigration
                             benefits pose a threat to national security, public safety, or the
                             integrity of the Nation’s legal immigration system.

                             FDNS is USCIS’ primary conduit to the law enforcement and
                             intelligence communities. USCIS adjudication officers collaborate
                             with FDNS officers, who in turn work with ICE, the JTTFs, state
                             and major urban area fusion centers, and other federal, state, and
                             local offices to resolve cases. 31 FDNS officers are present in every
                             domestic USCIS center, district, field, and asylum office. They
                             resolve background check information and other concerns that
                             surface during the processing of immigration benefit applications
                             and petitions. Resolution of these issues often requires
                             communication and liaison with both law enforcement and
                             intelligence entities.

                             The National Security Branch of FDNS develops and oversees
                             national security policies and procedures and resolves national
                             security concerns with relevant external government partners. By
                             comparison, the Intelligence Branch of FDNS manages the
                             analysis, reporting, production, and dissemination of immigration
                             based intelligence products. Intelligence Research Specialists
                             within the branch conduct research and analysis to identify
                             previously unknown links, associations, emerging trends,
                             correlations, anomalies, indications, and warnings with national
                             security and public security threat implications.



31
  A fusion center is generally defined as “a collaborative effort of two or more agencies that provide
resources, expertise, and information to the center with the goal of maximizing their ability to detect,
prevent, investigate, and respond to criminal and terrorism activity.” See Department of Justice,
                                                                                          .

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 25
                                    SENSITIVE SECURITY INFORMATION



                             HIRs are USCIS’ primary means for supporting nominations to
                             external government databases, which include TIDE and the
                             TSDB. These HIRs are first vetted and approved by I&A prior to
                             issuance. It is noteworthy that the vast majority of encounters are
                             paper-based and not physical encounters. USCIS often encounters
                             watchlisted individuals as a result of background checks conducted
                             in support of adjudicating applications and petitions. When USCIS
                             encounters a watchlisted individual in the United States, the
                             encounter information will be passed to the FBI for the appropriate
                             USCIS coordination and dissemination.

                             USCIS officials assist DHS components and other external
                             partners in supplementing and enhancing their products.




                             US-VISIT Supports Nominations and Encounters Through
                             Biometric and Biographic Information

                             The US-VISIT program supports DHS’ mission by providing
                             biometric identification services to federal, state, and local
                             government officials. This information assists these entities in
                             accurately identifying people they encounter and determining
                             whether these individuals pose a risk to the United States. US­
                             VISIT’s most visible contribution to the watchlist nomination
                             process is through the collection of digital fingerprints and
                             photographs from international travelers at U.S. visa-issuing posts
                             and ports of entry. The Automated Biometric Identification
                             System, also known as IDENT, is used to store this information as
                             well as information on known or suspected terrorists, criminals,
                             immigration violators, and others.

                             Collecting such information helps consular and immigration and
                             customs officers determine whether a person is eligible to receive a
                             visa or gain admission to the United States. This information is
                             also helpful in creating a viable means of identification for known
                             or suspected terrorists contained in external government databases.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 26 

                                    SENSITIVE SECURITY INFORMATION



                             Biometrics contained in IDENT have been synchronized with
                             NCTC and FBI databases.

                             Although US-VISIT is not a nominator, it will report encounters to
                             the TSC based on foreign government biometric matches in
                             IDENT to known or suspected terrorists.

                                               Although US-VISIT initially notifies the TSC of
                             such information, US-VISIT has no continued involvement in this
                             process.

                             I&A Is Involved in the Watchlisting Process Primarily
                             Through Its Watchlisting Cell

                             As a member of the Intelligence Community, I&A ensures that
                             information related to homeland security threats is collected,
                             analyzed, and disseminated to the full spectrum of homeland
                             security customers within DHS, state, local, and tribal
                             governments, the private sector, and the Intelligence Community.
                             I&A’s information sharing responsibilities include unifying
                             watchlisting efforts and ensuring that DHS is developing and
                             implementing effective information sharing policies and
                             collaborative programs required for mission success.

                             I&A’s role in the watchlist nominations process is through its
                             WLC. WLC personnel view the creation of the cell as a
                             “mandate” dictated by the July 2010                          .
                             Specifically, I&A officials cite language in Section XVII of the
                             guidance. The WLC is to serve as the departmental entity
                             responsible for submitting all DHS-generated nominations of
                             known or suspected terrorists to the NCTC. The WLC was
                             established to ensure that DHS nominations are comprehensive and
                             include the maximum amount of identifying and derogatory
                             information. WLC nominations are generated through either
                             component submissions or the cell’s review of HIRs, encounter
                             packages, National Targeting Center daily reports, Intelligence
                             Community coordination, and WLC-identified information.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 27
                                    SENSITIVE SECURITY INFORMATION




         Processes for Nominating Individuals for Inclusion on the
         Government Watchlist Need More Standardization
                   As the WLC assumes responsibility for centralizing DHS’ watchlisting
                   nomination and maintenance efforts, it is necessary to develop
                   departmental guidance that provides components with clear roles and
                   responsibilities for the watchlisting process and to standardize key
                   watchlisting definitions to ensure data integrity. The WLC needs to

32
   The Electronic System for Travel Authorization is a free, internet-based system used to screen Visa
Waiver Program applicants prior to traveling to the United States. These travelers must apply for and
receive an approved travel authorization via the system to board a plane or vessel bound for the United
States. As of March 2011, the Visa Waiver Program enables nationals of 36 participating countries to
travel to the United States for tourism or business for stays of 90 days or less without obtaining a visa.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 28 

                                    SENSITIVE SECURITY INFORMATION



                   provide continued advanced analysis of all DHS HIRs. In addition,
                   departmental efforts should not contradict current component interactions
                   with established collaborative entities, such as JTTFs and Visa Viper
                   committees. Although DHS detailees and liaisons to external government
                   partners add value to the watchlisting process, attention must be given to
                   how these positions are filled and experience is leveraged once individuals
                   return to DHS. To enhance the department’s overall watchlisting process,
                   a DHS-centric working group should be established. Lastly, I&A will
                   need to address concerns related to WLC staffing levels and the
                   appearance of contractors performing inherently governmental functions.

                             CBP and ICE Have Established Watchlisting Procedures and
                             Roles

                             As of March 2011, of the seven DHS components we reviewed,
                             only CBP and ICE have established watchlisting procedures and
                             roles.

                             CBP’s nominations and encounters directive was issued in
                             September 2006, and it specifies how CBP officers should submit
                             nominations and how to provide updated watchlist information
                             through the NTC-P. The directive emphasizes that CBP personnel
                             are to use the NTC-P for operational coordination with the TSC,
                             NCTC, and National JTTF. In December 2009, CBP
                             supplemented this directive with additional guidance that
                             reemphasized the reasons for an individual to be nominated to the
                             TSDB and the forwarding instructions for field operations
                             personnel to submit a nomination request.

                             Additionally, CBP has provided its field operations personnel with
                             a standardized NCTC Terrorist Watchlist Submission form,
                             designed to be completed and submitted electronically. The form
                             also includes detailed instructions for completing the submission.
                             Although CBP’s nominations and encounters directive predates the
                             July 2010                           its overall processes were
                             affected minimally.

                             In April 2008, ICE issued its directive for responding to TIDE
                             encounters or subjects of national security interest at ports of entry

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 29
                                    SENSITIVE SECURITY INFORMATION



                             or pre-clearance facilities.




                             In addition to the April 2008 directive on TIDE encounters, a
                             memorandum to all Special Agents-in-Charge requires ICE JTTF
                             agents to log the amount of time spent working on national
                             security investigations with the JTFF. As a result, ICE is able to
                             identify cases and track work hours dedicated to JTTF national
                             security investigations better.

                             Some DHS Components Rely on the Watchlisting Community
                             for Guidance

                             Although CBP and ICE have established watchlisting procedures,
                             five other DHS components have not. At the component level,
                             many officials said that because the components rarely submit
                             nomination requests, formal watchlisting procedures have not been
                             established. When necessary, some components rely on
                             partnerships to guide watchlisting efforts, working with entities
                             that have greater watchlisting experience, such as CBP. As the
                             NTC-P has evolved into a multiple DHS component and external
                             agency operation, many DHS components work through the center
                             to resolve watchlisting issues.

                             The US-VISIT program is not a frequent nominator, but
                             information sharing agreements are established with the FBI, TSC,
                             and a number of foreign governments. TSA has a memorandum of
                             understanding with the TSC for implementing the Secure Flight
                             program. Through Secure Flight, TSA uses the TSDB’s No Fly
                             and Selectee Lists to identify individuals who are prohibited from
                             boarding an aircraft or who are to receive additional physical
                             screening prior to boarding an aircraft. Although USCIS and the
                             USCG do not have formal watchlisting procedures, both share

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 30 

                                    SENSITIVE SECURITY INFORMATION



                             watchlisting information with external government partners
                             through standardized reporting products such as HIRs and Spot
                             Reports, respectively.

                             DHS components use the revised July 2010
                                       ; however, there are inconsistencies among some
                             components in interpreting and implementing the guidance.
                             Although multiple DHS components were involved in revising the
                                                     , the document is intended to apply to the
                             entire watchlisting community and is not a DHS-specific directive.
                             Appendix D provides a flow chart that depicts the nomination
                             process as specified in the                         prior to the
                             WLC.

                             With the Watchlisting Cell, DHS Intends to Standardize and
                             Enhance Its Watchlisting Processes

                             I&A officials view the WLC as a means of bringing consistency to
                             DHS’ role in nominating individuals for inclusion on government
                             databases. Once the cell has further refined its operational
                             capabilities, it will assume responsibility for reviewing and
                             augmenting routine DHS watchlist nominations of known or
                             suspected terrorists, while also allowing components to send
                             expedited nominations directly to the NCTC in exigent
                             circumstances. Appendix E identifies the nomination process with
                             the WLC. As noted, the WLC will add a new layer of review in
                             accordance with procedures outlined in the                      .




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 31
                                    SENSITIVE SECURITY INFORMATION



                             Clearer Nomination and Encounter Definitions Are Needed

                             Based on statements made by DHS officials and external federal
                             partners involved in the watchlisting process, there are
                             inconsistencies within DHS regarding how components define the
                             terms nomination and encounter. The
                             provides a definition for an encounter, but does not define a
                             nomination. Even though there is a definition for the term
                             encounter, DHS components interpret this term differently which
                             could result in data integrity issues between components and federal
                             partners. For example, US-VISIT officials define an encounter as
                             an interaction with anyone coming across the U.S. border, not just
                             an interaction with a known or suspected terrorist.




                             The watchlisting process requires significant interaction between
                             DHS and external federal partners; therefore information sharing
                             must be efficient to be effective. Multiple definitions hinder DHS’
                             ability to communicate effectively and impede the department’s full
                             integration into the watchlisting process. Therefore, all participants
                             must use the same terminology for pertinent definitions.

                             As the WLC develops specific SOPs for DHS’ watchlisting
                             process, it must include clear definitions for nominations and
                             encounters, and use terms consistent with and supportive of the
                             terminology used by the NCTC and the TSC. DHS components
                             must then use these terms to provide accurate metrics of its
                             watchlisting efforts.

                   Recommendation
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis:




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 32
                                    SENSITIVE SECURITY INFORMATION



                             Recommendation #1: Develop and disseminate to Department of
                             Homeland Security components standardized definitions for all
                             watchlisting terminology.

                   Management Comments and OIG Analysis
                             We evaluated DHS’ written comments and have made changes to
                             the report where we deemed appropriate. A summary of the
                             department’s written response to the report recommendations and
                             our analysis of the response follows each recommendation. A
                             copy of DHS’ response, in its entirety, is included as appendix C.

                             In addition, we received technical comments from departmental
                             components I&A, CBP, USCIS, ICE, Office of General Counsel,
                             and US-VISIT, as well as the FBI, NCTC, and the Department of
                             State, and incorporated these comments into the report where
                             appropriate. DHS components concurred with all ten
                             recommendations contained in the report. We appreciate the
                             comments and contributions made by each entity.

                             Management Response: I&A officials concurred with
                             Recommendation 1. In its response, I&A said the WLC has
                             completed its internal review process for the SOPs for DHS
                             watchlisting, which includes definitions for watchlisting
                             terminology. The WLC intends to provide the SOPs to DHS
                             components for their review by late summer 2011, but it is unlikely
                             that this will be completed within 90 days due to potential delays
                             in the external process. I&A asserted that once this document is
                             approved, it will reflect the DHS Enterprise approach to
                             watchlisting and will be widely disseminated.

                             In addition, WLC members have completed “train the trainer”
                             instruction on the Terrorist Watchlisting Overview Course,
                             developed by the NCTC, and will be educating DHS components
                             on the watchlisting process and the role of the WLC. Through this
                             training, they intend to standardize expectations for the WLC and
                             solidify the watchlisting vocabulary throughout DHS.



                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 33 

                                    SENSITIVE SECURITY INFORMATION



                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The recommendation will remain open pending our receipt of
                             finalized DHS watchlisting SOPs that establish clear definitions of
                             watchlisting terminology, and the finalized training material and
                             schedule for the watchlisting overview course.


                             DHS’ HIR Process Should Be Reviewed and Refined to Meet
                             External Partner Needs

                             ICE and USCIS rely on HIRs to share information for watchlisting
                             purposes. USCIS sends HIRs to I&A for publishing and
                             dissemination; however, USCIS officials did not know how long it
                             takes I&A to publish an HIR or how HIRs are integrated into the
                             databases, as no official feedback loop currently exists. ICE also
                             sends HIRs to I&A for publication and dissemination to applicable
                             departments and agencies, including the NCTC; however, ICE
                             HIRs are not viewed prior to publication because ICE manages and
                             staffs its own HIR program. HIRs can be accessed by Intelligence
                             Community members and relevant information can be used to
                             update or augment records in TIDE or the TSDB.

                             Although USCIS and ICE processes vary slightly, it is unclear how
                             HIR information is used by external partners. As of March 2011,
                             HIRs were not data sets in TIDE or TSDB records, and HIRs were
                             not considered formal nominations or encounter packages. After
                             our fieldwork ended, ICE officials indicated that ICE HIRs are
                             now linked to records in TIDE, which enables HIR use in data sets.

                             According to I&A officials, DHS is the only department that does
                             not have a standard format for intelligence reports to be included in
                             watchlisting records. External government officials said that due
                             to staffing issues, HIRs from DHS components are not being
                             analyzed on a regular basis. As the WLC further refines its
                             operational capabilities, NCTC officials encourage the cell to assist
                             with advanced analysis, culling important information from HIRs.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 34 

                                    SENSITIVE SECURITY INFORMATION



                             The WLC began reviewing published HIRs in January 2011 to
                             determine whether any information should be forwarded as a
                             nomination, or whether information could be used to augment
                             current watchlisting records. The cell receives a weekly
                             distribution list of published DHS HIRs, and is beginning to
                             review the USCG Spot Reports as well. Due to the increasing
                             workload, the WLC will review HIRs, Spot Reports, and encounter
                             packages as time permits, and was experiencing a backlog as of
                             March 2011.




                                                 3
                                              These statistics highlight the need for the WLC to
                             continue analyzing DHS HIRs. Accordingly, the cell should
                             establish processes and procedures to ensure that relevant HIR
                             information is assimilated into TIDE and the TSDB.

                             Figure 3: DHS Nominations in January 2011



                                         13%
                                    4%
                                                                                      HIRs



                                                              83%




33
     The WLC defined a nomination as an addition, modification to, or deletion of a record in TIDE.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

               DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and 

                                 Its Efforts to Support Watchlist Maintenance


                                                       Page 35

                                    SENSITIVE SECURITY INFORMATION



                   Recommendation
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis:

                             Recommendation #2: Establish processes and procedures to
                             ensure that relevant information from Homeland Intelligence
                             Reports is integrated into external government databases in a
                             timely manner.

                   Management Comments and OIG Analysis
                             Management Response: I&A officials concurred with
                             Recommendation 2. In its response, I&A said the WLC has
                             established internal procedures for processing HIRs and continues
                             to balance available resources to ensure that the most relevant
                             information is processed in a timely manner. Currently, all HIRs
                             are reviewed and culled for information that can be integrated into
                             the government watchlist and databases. The WLC has determined
                             that important information in many HIRs can be obtained more
                             quickly through other means, such as CBP Daily Reports,
                             component nominations, and encounter data. Other HIRs,
                             however, contain unique information and the WLC has prioritized
                             these for processing. The WLC evaluates work priorities
                             continually via weekly team meetings and through communication
                             with DHS components and Intelligence Community partners.

                             The WLC updated recent nomination metrics to reflect its re-
                             prioritization of effort as well as a reduction in processing backlog.



                                                                             The WLC also
                             publishes its production on a monthly basis to ensure that key
                             stakeholders are aware of its operations.

                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The recommendation will remain open pending our receipt of the

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 36 

                                    SENSITIVE SECURITY INFORMATION



                             finalized internal procedures for processing HIRs and
                             documentation evidencing the content and frequency of WLC
                             monthly production reports.


                             DHS Components Assist Inter-Agency Watchlisting Efforts
                             Through Participation on JTTFs and Visa Viper Committees

                             Although some DHS components are not directly involved in the
                             watchlist nomination process, they coordinate with and support
                             other departments and agencies that are. By sharing information
                             with external government partners, DHS components can improve
                             internal products and conduct link analysis for specific individuals
                             and known associates. ICE and USCIS officials said their most
                             significant contribution to the watchlisting process is through their
                             work with the JTTFs and Visa Viper committees.

                             Domestically, all DHS components we reviewed interact directly
                             with the JTTFs through detailees and liaisons. Internationally,
                             DHS personnel at foreign posts participate in the watchlisting
                             process through Visa Viper committees. ICE is an important
                             member of both of these external structures.




                             These coordination efforts allow DHS components to share
                             intelligence information directly with external government partners
                             without the need for review by the department.


                                                             Therefore, these nominations
                             are not considered DHS nominations.

                             DHS component officials expressed initial concerns as to how the
                             WLC may alter these processes. Specifically, the reporting
                             procedures for the JTTFs and Visa Viper committees are

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 37 

                                    SENSITIVE SECURITY INFORMATION



                             established in law and policy and do not fall under the purview of
                             the WLC. In addition, some watchlist nominations are derived
                             entirely from law enforcement activities and are submitted directly
                             through the JTTFs. Although I&A is the lead DHS component for
                             collecting and disseminating intelligence, it does not have the
                             authority to insert itself into JTTF and Visa Viper processes. As
                             the WLC finalizes its SOPs and becomes fully operational, it is
                             important that the cell considers the role of DHS components in
                             these established collaborative partnerships.

                   Recommendation
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis:

                             Recommendation #3: Ensure that the standard operating
                             procedures of the Watchlisting Cell do not contradict existing
                             external watchlisting processes of the Joint Terrorism Task Forces
                             and Visa Viper committees.

                   Management Comments and OIG Analysis
                             Management Comments: I&A officials concurred with
                             Recommendation 3. In its response, I&A said that WLC members
                             conducted extensive outreach with DHS components and
                             Intelligence Community partners during the development of the
                             DHS watchlisting SOPs. I&A asserts that these procedures do not
                             contradict existing processes of the FBI or Department of State.

                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The recommendation will remain open pending our receipt of
                             finalized DHS watchlisting SOPs that establish clear processes for
                             coordination with external partners.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 38 

                                    SENSITIVE SECURITY INFORMATION



                             DHS Detailees and Liaisons Add Value to Information Sharing
                             with External Partners

                             To add value to the watchlisting process, government departments
                             and agencies must share information. The use of detailees and
                             liaisons helps improve communication and enhance coordination.
                             Therefore, external government partners support DHS’ practice of
                             providing component detailees and liaisons to their respective
                             organizations. NCTC and TSC officials said that DHS detailees
                             and liaisons are subject matter experts and contribute unique skills.

                             DHS is well represented at overseas posts with personnel from
                             CBP, TSA, and ICE. ICE liaison officers and Visa Security Unit
                             officers at U.S. Embassies and Consulates around the world
                             provide added watchlisting expertise to the Visa Viper committees.
                             NCTC currently has representatives from several DHS
                             components, but center officials indicate that more detailees from
                             the watchlisting community would improve collaboration between
                             the ODNI and other departments and agencies.

                             Created as a multiple-agency organization, the TSC was designed
                             to be staffed by detailees from all participating watchlisting
                             community departments and agencies.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 39 

                                    SENSITIVE SECURITY INFORMATION




                             Many DHS personnel detailed to the TSC said that the shortage of
                             DHS staff within the TSC is detrimental to the department. The
                             following factors contribute to DHS’ reduced staffing numbers:

                                       Not enough available staff within the
                                       components/department;
                                       Shortage of Top Secret/Sensitive Compartmented
                                       Information clearances; and
                                       Insufficient emphasis placed on the importance of TSC
                                       details.

                             DHS detailees also note that their preparation for the working
                             conditions in an operations center is insufficient, and TSC-
                             acquired skills are not leveraged sufficiently when they return to

34




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 40
                                    SENSITIVE SECURITY INFORMATION



                             the department. The concern of “being forgotten” while at the
                             TSC adds to the reluctance of some who might otherwise volunteer
                             for a detail. Current DHS staffing shortages are especially
                             pronounced for attorneys and personnel with customs and
                             immigration experience.




                             The benefits of detailing DHS personnel to the TSC include being
                             integrated into the center’s management structure, which allows
                             for greater interaction between the department and FBI unit chiefs.
                             DHS components can coordinate and leverage additional
                             department resources to address questions or concerns, and
                             detailees return to DHS with enhanced skills and a better
                             understanding of the watchlisting process. In addition, DHS has
                             equities in policy development, and details with other government
                             departments and agencies allow DHS employees to cross-train in
                             different specialty areas, gain valuable experience, provide subject
                             matter expertise on DHS-related issues in an operational
                             environment, and improve overall coordination with external
                             partners.

                   Recommendation
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis, in coordination with
                             the CBP, TSA, ICE, USCIS, US-VISIT, and the USCG:

                             Recommendation #4: Develop and document a process which
                             leverages and takes full advantage of the knowledge and
                             experience of Department of Homeland Security detailees
                             returning from an assignment at the Terrorist Screening Center or
                             National Counterterrorism Center and their enhanced
                             understanding and knowledge of watchlisting operations.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 41 

                                    SENSITIVE SECURITY INFORMATION



                   Management Comments and OIG Analysis
                             Management Comments: I&A officials concurred with
                             Recommendation 4. In its response, I&A welcomed the
                             participation of DHS components within the WLC. To capitalize
                             on the experience of DHS officers, I&A has proposed establishing
                             permanent DHS component intelligence and operations officer
                             detailee rotations within the WLC. Establishing permanent
                             detailee rotations within the WLC will require an update to
                             departmental policy, which will not likely be concluded in the next
                             90 days.

                             OIG Analysis: We consider I&A’s proposed actions not
                             responsive to the intent of this recommendation, which is
                             unresolved and open. Although we encourage establishing a
                             rotational program within the WLC, this action does not address
                             the current recommendation as written. After we issued the draft
                             report and had subsequent discussions with I&A, we modified
                             Recommendation 4 to read, “
                                    leverage                             the knowledge and
                             experience of DHS detailees returning from an assignment at the
                             TSC or NCTC and their enhanced understanding and knowledge of
                             watchlisting operations.”

                             To be responsive to the intent of this recommendation, I&A should
                             provide documentation that evidences the development of a
                             process which takes full advantage of the unique knowledge and
                             experience of DHS personnel returning to their component from
                             details to the TSC or NCTC. This process should also be clearly
                             communicated to respective DHS components.


                             To Enhance the Overall Watchlisting Process, the Department
                             Needs a DHS-Centric Working Group

                             In addition to participating in multiple-agency organizations such as
                             the TSC, DHS components are involved in many intergovernmental
                             working groups related to watchlisting. The July 2010 revision of
                             the                          created the need for departments and

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 42
                                    SENSITIVE SECURITY INFORMATION



                             agencies to meet and work together. Emphasis on inter-agency
                             coordination and communication continues through the Information
                             Sharing and Access Interagency Policy Committee working groups
                             on nominations, database enhancement, screening, and encounters.
                             There are also various policy boards and committees focused on
                             information sharing led by external government partners (see
                             table 2).

                             Table 2: DHS Component Involvement in Working Groups
                               Examples of Some External Working Groups

                                         TSC Policy Board
                                         HSPD-6 Inter-agency Working Group
                                         NCTC Bi-weekly Working Group at ODNI
                                         Department of State Bi-weekly Teleconference
                                         TSC Monthly Watch Commander Meeting
                                         Senior Guidance Team with CBP, USCG, and ICE
                                         Maritime Intelligence Targeting Working Group
                                         Information Sharing and Access Interagency Policy
                                         Committee Working Groups



                             These working groups are all beneficial for inter-agency
                             cooperation, but there is a need for intra-departmental
                             communication and coordination within DHS. Although individual
                             components may meet, there is currently no DHS working group
                             focused solely on the watchlisting process.

                             The WLC began such conversations as it reached out to individual
                             DHS components during the cell’s development stage, but
                             department officials were not brought together until a WLC kick-
                             off meeting in March 2011. As the WLC becomes more
                             established, open and active communication should continue
                             between DHS components involved in the watchlisting process.
                             As the WLC is in a unique position to identify DHS components
                             instrumental in the watchlisting process, it should involve offices
                             with non-traditional support roles such as US-VISIT. Bringing
                             together all relevant components will allow DHS to bridge gaps in

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 43
                                    SENSITIVE SECURITY INFORMATION



                             current processes and integrate components fully in department-
                             wide watchlisting efforts.

                   Recommendation
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis, in coordination with
                             the CBP, TSA, ICE, USCIS, US-VISIT, and the USCG:

                             Recommendation #5: Establish a Department of Homeland
                             Security working group focused solely on the watchlisting process
                             to coordinate the roles and responsibilities of all components
                             involved.

                   Management Comments and OIG Analysis
                             Management Comments: I&A officials concurred with
                             Recommendation 5. In its response, I&A stated that the WLC is
                             properly situated to lead a DHS working group focused on the
                             watchlisting process as its members currently participate in a bi­
                             weekly Intelligence Community Watchlisting Working Group and
                             in several working groups addressing more strategic issues. The
                             WLC intends to initiate such efforts through a forum for the
                             coordination of the SOPs. The WLC will then coordinate the
                             development of the working group and its schedule with the
                             participants.

                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The recommendation will remain open pending our receipt of
                             meeting minutes from the forum for coordinating the SOPs and a
                             charter establishing the DHS-centric watchlisting working group.
                             This charter should set forth the mission, objectives, membership,
                             and schedule of the working group. All DHS components with a
                             role in the watchlisting process should be represented within the
                             forum and the proposed watchlisting working group.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 44 

                                    SENSITIVE SECURITY INFORMATION



                             Issues Raised Concerning Watchlisting Cell Staff Levels and
                             the Appearance of Contractors Performing Inherently
                             Governmental Functions



                                                For the cell to be successful, it must support DHS
                             component needs, rather than having components support its
                             operations. To do so, adequate staffing is necessary to provide
                             effective communication, coordination, and outreach to DHS
                             components, and the WLC’s services need to be tailored to DHS
                             components’ unique missions and responsibilities. Given the
                             current model, it is unclear whether the WLC has the requisite
                             staffing levels to serve as DHS’ central entity responsible for all
                             department watchlist nominations.

                             In addition, there is an appearance that WLC contract personnel
                             are performing inherently governmental functions. On
                             June 1, 2010, the comment period for a proposed policy
                             memorandum related to inherently governmental functions closed
                             with little consensus as to a uniform definition of the term. As of
                             March 2011, a final policy memorandum had yet to be issued, and
                             as such, existing legal authorities provide the proper framework for
                             this discussion. There are two main definitions of inherently
                             governmental within federal law and policy. A statutory definition
                             has been enacted as part of the
                                          . 35 This definition states that an inherently
                             governmental function is so intimately related to the public interest
                             as to require performance by federal government employees.

                             The other definition is policy oriented and contained in Office of
                             Management and Budget (OMB) Circular A-76, dated
                             May 29, 2003. This definition states that an inherently
                             governmental activity is one that is so intimately related to the
                             public interest as to mandate performance by government
                             personnel. OMB Circular A-76 outlines categories of activities
                             that can be considered inherently governmental. Most notably, it

35
     See generally Public Law 105-270, as amended; and 31 U.S.C. § 501 note.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

               DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                 Its Efforts to Support Watchlist Maintenance

                                                       Page 45
                                    SENSITIVE SECURITY INFORMATION



                             declares that inherently governmental activities involve the
                             following:

                                       Binding the United States to take or not to take some action
                                       by contract, policy, regulation, authorization, order, or
                                       otherwise;
                                       Determining, protecting, and advancing economic,
                                       political, territorial, property, or other interests by military
                                       or diplomatic action, civil or criminal judicial proceedings,
                                       contract management, or otherwise;
                                       Significantly affecting the life, liberty, or property of
                                       private persons; or
                                       Exerting ultimate control over the acquisition, use, or
                                       disposition of United States property, including establishing
                                       policies or procedures for the collection, control, or
                                       disbursement of appropriated and other federal funds.36

                             DHS officials and external government partners said that the WLC’s
                             operations are dependent on contract personnel. The cell is staffed
                             with contractors tasked with determining whether component
                             nominations are suitable for dissemination to external databases
                             such as TIDE and the TSDB. As a result, there is an appearance that
                             contractors are acting as the final arbiters of specific nominations.

                             To determine whether DHS’ WLC contractor activities constitute
                             inherently governmental activities, it is necessary to examine DHS
                             Management Directive 0476 and OMB Policy Letter 92-1, dated
                             September 23, 1992. Management Directive 0476 applies to DHS’
                             performance of commercial activities, and its requirements
                             generally follow those of the
                                         , the revised OMB Circular A-76, and applicable
                             Federal Acquisition Regulations. As Management Directive 0476
                             notes, the determination that work is mission essential is not a part
                             of the definition of inherently governmental activities under either
                             the statutory definition, or the definition contained in OMB
                             Circular A-76.


36
     OMB Circular A-76, Attachment A, (2003).

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 46
                                    SENSITIVE SECURITY INFORMATION



                             OMB Policy Letter 92-1 provides additional policy guidance
                             related to service contracting and inherently governmental
                             functions. This guidance is also reflected in Federal Acquisition
                             Regulation section 7.503 and is provided to assist executive branch
                             officers and employees in avoiding unacceptable transfer of
                             official responsibility to government contractors. Although Policy
                             Letter 92-1 Appendix A is not intended to define the factors used
                             in making a legal determination regarding inherently governmental
                             activities, it provides an illustrative list of activities that are
                             inherently governmental as a matter of policy. These functions
                             include the following:

                                       Direct conduct of criminal investigations;
                                       Determination of agency policy, such as determining the
                                       content and application of regulations;
                                       Determination of federal program priorities and budget
                                       requests;
                                       Direction and control of federal employees; and
                                       Direction and control of intelligence and
                                       counterintelligence operations.

                             During our fieldwork, WLC contractors gave the appearance of
                             performing inherently governmental functions. They were exerting
                             direction and control of intelligence operations and were also
                             determining department policy, namely the inclusion of individuals
                             in external government databases such as TIDE and the TSDB.
                             Although some DHS officials may have viewed this staffing model
                             as a necessary means for establishing the WLC, it is essential that
                             the cell reduce its overall reliance on contract personnel.

                   Recommendation
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis:

                             Recommendation #6: Reduce overall Watchlisting Cell reliance
                             on contract personnel to avoid the appearance that contractors are
                             performing inherently governmental functions, and enhance efforts
                             to replace existing contractors with full-time federal employees.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 47
                                    SENSITIVE SECURITY INFORMATION



                   Management Comments and OIG Analysis
                             Management Response: DHS officials concurred with
                             Recommendation 6. In its response, I&A acknowledged that the
                             current operational situation of the WLC could give rise to the
                             potential appearance that contract officers are performing
                             inherently governmental functions. Program officials asserted,
                             however, that contract officers assigned to the WLC do not exert
                             control of intelligence operations or determine department policy.
                             They stated that the WLC government lead determines whether
                             component nominations meet minimum biographic and derogatory
                             requirements for watchlisting and also makes the final
                             determination regarding whether to reject a DHS component
                             nomination.

                             I&A noted that the report did not examine the
                                                          and its more recent definition of the
                             term “inherently governmental functions” in its analysis of WLC
                             contractors. I&A further emphasized that DHS benefits from the
                             use of contract officers with specialized experience in the area of
                             watchlisting. Nonetheless, I&A intends to convert some contractor
                             positions in FY 2012 to achieve a better balance between
                             government and contractor staffing in the WLC. This initiative
                             will be dependent on approval of the FY 2012 budget request.

                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The                                        does not contain a
                             modified or more recent definition of the term inherently
                             governmental functions. Rather, it codifies an already existing
                             definition found in Federal Acquisition Regulation subpart 7.5.
                             This definition was discussed during the course of our analysis.

                             The                                        also creates a new
                             category of “functions closely associated with inherently
                             governmental functions.” Although our report asserted that
                             contractors in the WLC appear to be performing inherently
                             governmental functions, it should be noted this new requirement
                             provides even less latitude in regard to what types of functions

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 48
                                    SENSITIVE SECURITY INFORMATION



                             may be performed by contractors. Specifically, it requires that
                             “special consideration” be given to using federal employees to
                             perform such functions.

                             Although the description of WLC personnel duties in the DHS
                             response is helpful to our analysis, these duties have yet to be
                             included in finalized SOPs. The recommendation will remain open
                             pending our receipt of documentation demonstrating that the roles
                             of WLC personnel have been formally adopted in finalized SOPs
                             and that I&A has taken steps to convert existing contractors to
                             government employees.


         Although the Watchlisting Cell Adds Value, Timeliness and
         Quality Challenges Remain
                   The WLC has demonstrated value and is beginning to streamline the
                   watchlisting process in collaboration with DHS components. I&A and the
                   WLC have direct access to intelligence information, but analytical support
                   exists throughout DHS and should be leveraged effectively. DHS’ most
                   significant contribution to the watchlisting process is the collection and
                   analysis of encounter packages. This information is critical to enhancing
                   existing watchlist database records, but quality and legibility issues exist
                   with how this information is collected. To achieve effective coordination
                   with external partners, DHS components use formal and informal
                   information sharing processes. As the central point for DHS efforts, I&A
                   should ensure that WLC resources are sufficient to provide relevant,
                   accurate, and timely information to internal and external watchlisting
                   partners.

                             The Watchlisting Cell Is Reviewing and Enhancing
                             Nomination Packages, but Timeliness Concerns Exist

                             Even though DHS is not a primary federal government nominating
                             entity, it is the foremost partner in providing encounter information
                             that contributes to the accuracy and reliability of external
                             government databases. Prior to the WLC, DHS’ nomination
                             process was decentralized and component specific. CBP and TSA,
                             two major contributors, adopted their own nomination submission

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 49 

                                    SENSITIVE SECURITY INFORMATION



                             methods.




                             The WLC is reviewing and enhancing nomination packages by
                             analyzing all DHS holdings, including biometric and immigration
                             information. The WLC will also lead DHS’ effort to implement
                             the NCTC computer-based standard nomination tool, which
                             reduces NCTC personnel manual data entry into TIDE as
                             information is uploaded onto the system instantly once received.
                             Most important, the cell is beginning to provide analysis of
                             previously published HIRs submitted by ICE and USCIS for
                             possible inclusion in TIDE and the TSDB.

                             An additional benefit of the WLC is the notification process it
                             provides to components. Until January 2011, DHS components
                             did not receive formal notification from external departments and
                             agencies when nominations were received or included in TIDE and
                             the TSDB. Components had to search multiple databases to verify
                             when nominations had been entered. The WLC notifies DHS
                             components when it receives the nomination request and when the
                             nomination has been added to an external database. In addition,
                             the WLC is tracking transactions and maintaining a log of all
                             watchlisting activities. As a result, the WLC intends to develop
                             metrics that will further analyze trends and patterns in the DHS
                             watchlisting process.

                             Until the WLC fully refines its operational capabilities, it is unclear
                             whether the cell will have the anticipated benefits of providing more
                             comprehensive nomination packages, consolidating tracking and
                             metrics, and serving as the single point of contact for watchlisting
                             issues. In the interim, the consolidated watchlisting process raises
                             some concerns about the timeliness of nomination submissions.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 50 

                                    SENSITIVE SECURITY INFORMATION




                             Although NCTC officials were generally pleased with the accuracy
                             of DHS information, they welcomed a central point of contact
                             within DHS and a more streamlined information sharing process.
                             TSC officials did not comment on the accuracy and timeliness of
                             DHS nominations because most information is processed through
                             the NCTC, with the exception of domestic nominations sent
                             directly to the FBI.

                             Analytical Support Exists Throughout DHS and Should Be
                             Leveraged by the Watchlisting Cell

                             Even though I&A is a member of the Intelligence Community and
                             has access to intelligence information, some DHS components
                             have their own analytical capabilities, which augment their
                             nomination processes. For example, the NTC-P is supported by
                             CBP analysts from its Office of Intelligence and Operations
                             Coordination, who have access to intelligence information, related
                             cable traffic, TIDE, and relevant DHS databases. This office
                             provides pertinent information to the NTC-P to support its daily
                             operations. TSA, ICE, USCIS, and the USCG also have dedicated
                             analysts who provide independent support to augment the
                             watchlisting process. In addition to analytical support, multiple
                             components have had long-standing relationships with the NCTC,
                             the TSC, and the FBI. These relationships have allowed
                             components to verify and coordinate nomination information
                             informally prior to submission.

                             As the WLC assumes responsibilities for DHS watchlisting efforts,
                             emphasis should be given to understanding the unique missions,
                             abilities, and products of each component so that the cell can
                             leverage existing subject matter expertise and relationships with
                             external partners.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 51 

                                    SENSITIVE SECURITY INFORMATION



                   Recommendation
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis:

                             Recommendation #7: Develop and document a process with
                             Department of Homeland Security components that engages
                             subject matter experts and limits duplication of effort among
                             components and the Watchlisting Cell’s analytical support staff.

                   Management Comments and OIG Analysis
                             Management Response: I&A officials concurred with
                             Recommendation 7. In its response, I&A said the WLC leverages
                             component subject matter expertise through extensive
                             communication and collaboration with component analytical
                             support staff at CBP, ICE, USCG, TSA, and USCIS, in addition to
                             external partners such as the FBI, National Security Agency,
                             Central Intelligence Agency, and NCTC. Program officials further
                             stated that during the period between the conclusion of this
                             review’s fieldwork and publication of the draft report, the WLC
                             worked with DHS components and noted no duplication of effort.

                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The recommendation will remain open pending our receipt of
                             documentation demonstrating that the roles of WLC personnel
                             have been formally adopted in finalized SOPs and that these roles
                             are not duplicating component analytical support.


                             Encounter Information Is Critical to Enhancing Existing
                             Watchlist Records, but Quality Issues Exist

                             Due to the volume of DHS encounters, the NTC-P has a well-
                             established process for collecting, processing, and submitting
                             information. The TSC is an integral part of this process and is the
                             first entity contacted to verify names and identities in the TSDB.


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 52 

                                    SENSITIVE SECURITY INFORMATION




                             NCTC officials stated that the usefulness of encounter data
                             depends on its completeness, readability, and the analysis that is
                             performed on this material. When a port of entry has access to the
                             requisite software and appropriate equipment, it can scan
                             information directly into the NTC-P case management system,
                             referred to as the Intelligence and Operations Framework System.




                             Furthermore, CBP personnel would likely require additional
                             training related to compiling encounter packages to demonstrate
                             why quality and uniformity are necessary.

                   Recommendations
                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis:

                             Recommendation #8: Coordinate and collaborate with external
                             government watchlisting partners to develop a standard encounter

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 53 

                                    SENSITIVE SECURITY INFORMATION



                             tool capable of automatically exporting and integrating information
                             into external databases.

                             We recommend that Assistant Commissioner for the Office of
                             Field Operations, Customs and Border Protection:

                             Recommendation #9: Ensure adherence to standard operating
                             procedures at the ports of entry for processing encounter packages
                             and improve the quality and timeliness of submissions to the
                             National Counterterrorism Center and Terrorist Screening Center.

                   Management Comments and OIG Analysis
                             Management Response: I&A officials concurred with
                             Recommendation 8. The WLC noted that advanced analysis is
                             necessary to exploit pocket litter and that integrating this source of
                             data into TIDE and the TSDB cannot be fully automated.
                             Nonetheless, I&A will work with other members of the DHS
                             Enterprise to address solutions to this issue, although a final
                             solution is constrained by coordination requirements and funding
                             approval.

                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The recommendation will remain open pending our receipt of
                             documentation demonstrating the development of a standard
                             encounter tool capable of automatically exporting and integrating
                             information into external U.S. government databases.

                             Management Response: CBP officials concurred with
                             Recommendation 9. In its response, CBP said five GS-1801
                             National Security Specialist positions have been allocated to
                             augment CBP’s NTC-P staff who record and share encounter
                             packages. In addition, summer intern assistance has decreased the
                             backlog of packages to fewer than 100 as of June 22, 2011.
                             Currently, requirements for the package are sent directly to the
                             ports of entry, specifying what items should be included. A
                             July 22, 2009, memorandum titled “Packet Requirements for All
                             Positive TIDE Encounters” was distributed to the field, further

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 54 

                                    SENSITIVE SECURITY INFORMATION



                             outlining expectations for encounter packets, including subject
                             items, timeframe for forwarding, and possible repercussions for
                             non-compliance.

                             OIG Analysis: We consider CBP’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             Although CBP has used personnel to decrease the backlog of
                             encounter packages, it is imperative that this duty be performed
                             throughout the year. In addition, our report highlighted issues
                             specifically related to encounter material readability. The
                             recommendation will remain open pending receipt of information
                             indicating that additional National Security Specialist positions are
                             staffed and that corrective action has been taken to address
                             readability concerns.


                             DHS Components Collaborate and Contribute to External
                             Government Partners Through Informal Information Sharing
                             Processes

                             Although the NTC-P provides the majority of encounter
                             information to external watchlisting partners, other DHS
                             components contribute to the watchlisting process through either
                             data exchange or on-site liaisons at the NTC-P. As of March 2011,
                             ICE, USCIS, TSA’s Office of Intelligence, and the Federal Air
                             Marshal Service provided liaisons to the NTC-P. In addition,
                             liaisons from the FBI and Department of State provide daily
                             support. The USCG is scheduled to move resources to the NTC-P
                             in calendar year 2011 to allow for closer coordination and use of
                             the NTC-P’s databases for screening passengers and cargo. The
                             collocation of component personnel allows the NTC-P to generate,
                             verify, and coordinate information immediately and ensure the
                             most accurate, timely, and relevant information exchange with
                             external departments and agencies.

                             In addition to providing liaisons, DHS components support the
                             watchlisting process through department-wide information sharing.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 55 

                                    SENSITIVE SECURITY INFORMATION




                             USCIS’ Intelligence Branch provides analytical support and
                             submits HIRs through I&A on information deemed of interest to
                             the Intelligence Community. The National Security Branch of
                             FDNS also works in coordination with its Intelligence Branch. It
                             is possible that USCIS may encounter known or suspected
                             terrorists who file petitions or applications for immigration
                             benefits, and in event of such an encounter USCIS would contact
                             the TSC to verify the individual’s identity and coordinate efforts
                             through the JTTF.

                             Existing Resources May Affect the Watchlisting Cell’s Ability
                             to Provide Advanced Analysis

                             The WLC is beginning to assist in the analysis of submitted
                             encounter packages, reviewing and augmenting information for
                             potential nominations.



                                                                                                           Any
                             information obtained will be used to generate additional
                             nominations and to modify or delete existing records.

                             NCTC officials consider the WLC’s activities critical to the
                             encounter process. Advanced analysis prior to submission to the
                             NCTC would help reduce any existing backlog experienced by
                             external government partners. The need for an automated
                             encounter tool and difficulty reviewing large volumes of material
                             for each encounter package makes data entry into external
                             databases slow and arduous.


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 56 

                                    SENSITIVE SECURITY INFORMATION



                             Despite the importance of in-depth analysis of encounter
                             information, WLC officials stated that any analysis of encounter
                             packages or other information, such as HIRs, can be conducted
                             only when time permits. With the current staffing level, the cell’s
                             first priority is reviewing any nominations submitted by the DHS
                             Secretary or components. Any other tasks will be secondary and
                             can be accomplished only as resources become available. As a
                             result, it is important that the WLC be provided adequate resources
                             to conduct advanced analysis.

                   Recommendations

                             We recommend that the Under Secretary for Intelligence and
                             Analysis, Office of Intelligence and Analysis:

                             Recommendation #10: Ensure that the Watchlisting Cell is
                             provided with adequate staffing and resources to conduct advanced
                             analysis on all encounter packages and Homeland Intelligence
                             Reports in a timely manner.

                   Management Comments and OIG Analysis

                             Management Response: I&A officials concurred with
                             Recommendation 10. In its response, I&A said initial budgeting
                             for the WLC was provided by ODNI and future plans to address
                             staffing are subject to funding approval. During the first six
                             months of its existence, the WLC has identified data sources and
                             processes that will enable it to plan for future staffing needs.
                             Future initiatives will also be dependent on approval of the
                             FY 2012 budgetary framework.

                             OIG Analysis: We consider I&A’s proposed actions responsive
                             to the intent of this recommendation, which is resolved and open.
                             The recommendation will remain open pending our receipt of
                             documentation demonstrating that the WLC has generated a
                             staffing plan and that DHS is executing appropriate action in
                             support of this plan.



                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance
 


                                                       Page 57 

                                    SENSITIVE SECURITY INFORMATION
Appendix A
Purpose, Scope, and Methodology

                             As part of the
                                                , we reviewed DHS’ role in nominating
                             individuals for inclusion on the government watchlist and its
                             efforts to support watchlist maintenance. Our objectives were to
                             determine: (1) which DHS components contribute to the
                             nomination and maintenance of data contained in external
                             government databases; (2) whether processes and standards for
                             nominating individuals for inclusion in external databases exist
                             within DHS and the effectiveness of these efforts; (3) whether the
                             information DHS components collect and disseminate to federal
                             partners is relevant, timely, and accurate; and (4) which external
                             federal departments and agencies receive DHS-generated
                             information.

                             We reviewed the process for nominating individuals for inclusion
                             in external databases and updating existing entries, examined the
                             policies and procedures relating to these processes, reviewed
                             relevant memoranda between DHS and external federal
                             government partners, and interviewed DHS and other federal
                             government officials with a role in the nomination process.

                             We interviewed DHS officials from the following components:
                             Office of Policy, Screening Coordination Office, I&A, CBP,
                             USCIS, ICE, USCG, TSA, and the National Protection and
                             Programs Directorate’s US-VISIT Program. In addition, we met
                             with officials from the Department of State’s Bureau of Consular
                             Affairs, the Department of Justice’s FBI, and the ODNI’s NCTC.
                             This allowed us to assess the effectiveness of DHS’ efforts, as well
                             as the level of collaboration between DHS components and
                             external federal departments and agencies involved in the
                             watchlisting process.

                             We also reviewed applicable legislation, regulations, directives,
                             policies, operating procedures, and official guidance documents
                             and manuals. In addition, we studied work previously performed
                             by our office in this and associated areas, as well as the work
                             conducted by the Government Accountability Office, the


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 58
                                    SENSITIVE SECURITY INFORMATION
Appendix A
Purpose, Scope, and Methodology

                             Department of Justice Office of Inspector General, and the
                             Congressional Research Service.

                             Our fieldwork was conducted between October 2010 and March
                             2011. We initiated this review under the authority of the
                                                  , as amended, and according to the
                                                        , issued by the President’s Council on
                             Integrity and Efficiency.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 59
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Recommendations

                   We recommend that the Under Secretary for Intelligence and Analysis,
                   Office of Intelligence and Analysis:

                   Recommendation #1: Develop and disseminate to Department of
                   Homeland Security components standardized definitions for all
                   watchlisting terminology.

                   Recommendation #2: Establish processes and procedures to ensure that
                   relevant information from Homeland Intelligence Reports is integrated
                   into external government databases in a timely manner.

                   Recommendation #3: Ensure that the standard operating procedures of
                   the Watchlisting Cell do not contradict existing external watchlisting
                   processes of the Joint Terrorism Task Forces and Visa Viper committees.

                   We recommend that the Under Secretary for Intelligence and Analysis,
                   Office of Intelligence and Analysis, in coordination with the CBP, TSA,
                   ICE, USCIS, US-VISIT, and the USCG:

                   Recommendation #4: Develop and document a process which leverages
                   and takes full advantage of the knowledge and experience of Department
                   of Homeland Security detailees returning from an assignment at the
                   Terrorist Screening Center or National Counterterrorism Center and their
                   enhanced understanding and knowledge of watchlisting operations.

                   Recommendation #5: Establish a Department of Homeland Security
                   working group focused solely on the watchlisting process to coordinate the
                   roles and responsibilities of all components involved.

                   We recommend that the Under Secretary for Intelligence and Analysis,
                   Office of Intelligence and Analysis:

                   Recommendation #6: Reduce overall Watchlisting Cell reliance on
                   contract personnel to avoid the appearance that contractors are performing
                   inherently governmental functions, and enhance efforts to replace existing
                   contractors with full-time federal employees.



                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 60 

                                    SENSITIVE SECURITY INFORMATION
Appendix B
Recommendations

                   Recommendation #7: Develop and document a process with Department
                   of Homeland Security components that engages subject matter experts and
                   limits duplication of effort among components and the Watchlisting Cell’s
                   analytical support staff.

                   Recommendation #8: Coordinate and collaborate with external
                   government watchlisting partners to develop a standard encounter tool
                   capable of automatically exporting and integrating information into
                   external databases.

                   We recommend that the Assistant Commissioner for the Office of Field
                   Operations, Customs and Border Protection:

                   Recommendation #9: Ensure adherence to standard operating procedures
                   at the ports of entry for processing encounter packages and improve the
                   quality and timeliness of submissions to the National Counterterrorism
                   Center and Terrorist Screening Center.

                   We recommend that the Under Secretary for Intelligence and Analysis,
                   Office of Intelligence and Analysis:

                   Recommendation #10: Ensure that the Watchlisting Cell is provided
                   with adequate staffing and resources to conduct advanced analysis on all
                   encounter packages and Homeland Intelligence Reports in a timely
                   manner.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance
 


                                                       Page 61 

                                     SENSITIVE SECURITY INFORMATION
Appendix C
Management Comments to the Draft Report


                                                                                    U.S. IHpartment or Homeland Security
                                                                                    Wishington. DC 20528


                                                                                    Homeland
                                                                                    Security
                                                        JUL 1 9 2011
              Carlton L Mann
              Assistant Inspector General for Inspections
              DHS Office of Inspector General
              1120 Vennont Ave NW
              Washington, D.C. 20005

              RE: Draft Report 0IG-09-206-lSP-DHS, DHS' Role in Nominating Individuals/or Inclusion on
                  Government WafchlisfS and ils Efforts to Supporl WatchlislS Maintenance

              Dear Mr. Mann:

              The Department of Homeland Security (DepartmentlDHS) appreciates the opportunity to review
              and conunent on the Office of Inspector General (OIG) draft report for 0IG-09-206-ISP-DHS,
              DHS' Role in Nominating individuals/or Inclusion on Government W{ltchlists and Its Efforts to
              Support Watchlists Maintenance. The Department, particularly the Office of Intelligence and
              Analysis (I&A), is actively resolving the issues identified in the report.

              The Department appreciates the finding of the program evaluators that "the [DHS] Watchlisting
              Cell has demonstrated value and is streamlining processes in collaboration with Department
              components." DHS realizes that properly informing government watchlists in a timely manner is
              a critical task in protecting the American populace, critical infrastructure and key resources, and
              means and nodes of transportation. Consequently, the Department believes that the OIG report
              mentioned above would be more complete by including tbe following points:

              •   The DHS WLC coordination process includes proactively redressing nominations conceming
                  subjects of ongoing investigation by component agencies and thus serves to address
                  component operational concerns. OIG does not mention this aspect ofthe WLC in its
                  discussion of WLC establishment, beginning on page 13 and referenced again on page 40;

              •



              •   U. S. Customs and Border Protection (CBP) has historically been the single largest producer
                  of Homeland Intelligence Reports (HlRs) based upon individuals either on the Terrorist
                  Identities Datamart Environment (TIDE) list or cross referenced as a known and suspected
                  terrorist (KST) in TECS. However, the DIG fails to mention this production in its section
                  that discusses contributions to watchlist information beginning on page 15;




                                     SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                         Page 62 

                                      SENSITIVE SECURITY INFORMATION
Appendix C
Management Comments to the Draft Report



                                                                                                              -2-


              •


              •   The description of the relevant legal sources inlorming the delennina.lion as to whether
                  certain functions are inherently governmental provided on pages 37-38 of the draft report is
                  incomplete. Part D, section 736(bX5) of the Omnibus Appropriations Act 0[2009 (1'.L.1 t 1-
                  8), provid"s Ilw most r<."Ccnt statutory definition or "inherently governmental [unctions" and
                  adds a new category of"functions closely associated wilh inherently governmental
                  functions.'"

              The Department would also like to nOle the significlInllime lapse between the conclusion of
              fieldwork related to this engagement and the publication of the drafl report. The period from
              March to June 0[20 11 noted significant changes in DJ IS watchlisting that iIlX: not reflected in Ihe
              report. Consequently. many orthe !lndings and recommendations in the relXJrt are either
              outdated or han: been addressed by the ongoing maturation process of watehlisting operations.
              In addition to our responses 10 the specilic recommendations in the report, it should be noted
              that:

              •   On page 19 and again on page 44. OIG notcs the plan by U.S. Coast Guard (USCG) to
                  collocate pcrsonm:1 with the National Targeting Center - Passenger (NTC-P). This action
                  was completed on March 15.2011:

              •


              •


              The Department's responses to each oflhe recommendations from the draft report ean be found
              below:

               We recommend that thl' Untler Secretary for Intelligence and Analr;;i;;:

              ({ecommemJation Nl: Develop and disseminate to Dcpmtment of Homeland Security
              components standardized definitions for all watchlisting terminology.

              VIIS Response: Concur. The DHS Watchlisting Cell (WLC) has completed intcmal
              coordination on the standard operating procedures for OHS watchlisting. which includes
              delinitions for watchlisting terminology. and intends to begin external coordination of the
              documcllt with DHS components as early as July 2011. Due to the potential for delays in the
              external coordination process. it is unlikely that this wilt be completed within 90 days. When
              appro"cd, this document will renect the DHS Enterprise approach to w8tchlisting and will be




                                      SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                          Page 63 

                                     SENSITIVE SECURITY INFORMATION
Appendix C
Management Comments to the Draft Report


                                                                                                           ~   3   ~




              shared broadly. [n addition. WLC team members have completed "Irailllhe trainer" instruction
              on the Terrorist Walchlisling Overvil;:w Course, developed by NCTC and will be educating DHS
              Enterprise members on the basics of walchliSling and the WLC's role in il. which will serve to
              stlmdardize expectations for the WLC and solidi fy the w!llchliSling vocabulary throughoullhe
              Department. This education process will be an ongoing elTon Ihm will adapt itself to personnel
              changes throughout the Department.

               Recommendation #2: Establish processes and procedures 10 enSure Ihnt relevant infol'01ation
              from Homeland Intelligence Rcpons (I-fiRs) is integrated into external government watchlists in
              a timely manner.




               I&A believes that it has accomplished the spirit Qfthis recommendation and respectfully requests
               its closure.

               Recommend;ltlon #3: Ensure thlltthe standard opernting procedures of the Watchlisting Cell do
               not contradict existing extertml wlltchlisting processes of the Joint Terrorism Task Forces and
               Visa Viper commillccs.

              DHS Response: Concur. WLC members conducted extensive outreaefl with DHS components
              and Ie partners during the development of the DHS W"tehlisling Slondard operating proc<:dures.
              DI--IS Enterprise wllIchlisting activities do nOI contradict existing processes of the FBI Qr
              Depar1mclll of State. I&A beliews that il has accomplished the spirit of this recommendation
              and respectfully requests its e1osure.

               \Ve recommend thllt the Under Secreta,,· for Intelligence lind Analysis, in coordinatioll
               with th CIII', TSA, ICE, USCIS, and the USCG:




                                     SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                         Page 64 

                                      SENSITIVE SECURITY INFORMATION
Appendix C
Management Comments to the Draft Report




               Recommendalion 11'4: Leverage the knowledge IlIld e:\pcri~ of I)qlanment of Homeland
               Secwity detaila:s returning from an assignment at the Terrorist Screening Center or National
               Counterterrorism Center and Uke full oc!"Mtage of their enhanced undCTSUllding and knowledge
               of watchlisting opennions.

               D1iS Re'lponse: Concur. The IXpanment uppredates the broad latitude provided by 0[G to
               determine the best means of leveraging Ol-IS deuilee expertise. I&A welcomOi the paMicipation
               of OHS Enterprise panners within the WLC. DIIS can capitalize on the c:\pericnce of these
               officers by establishing permanent OHS componcnt intclligence and operations officcr detailee
               rotations within the WLe. The establishment of penn anent DUS detailee rotations within the
               WLC will require an update 10 DepanmC:l1tlll policy. which will notlike!y be concluded in the
               next 90 days.

              Recommendation H5: Establish a Department of Ilomeland Security working group f<x:u~:d
              soldy on the watchlisting pmcess tft coordin:ne the roles and responsibilities of all components
              invol\·ed.

              DJIS RuponR: Concur. The WLC is properly situated to lead this effort as its members
              currently panicipate in a bi·weekly IC Watchlistin£ Worting Group and in sc\'eral ....,orting
              groups addrcssillg more strategic issues. The WLC .....ill initiate the recommendation initially as
              :'I fonun for the coordin::tion of the sumdard operating procedures and ....i lltnen coordirnue the
              development of the grocp and its schedule ....ith tho: panieipants. While e\'ery efTon ",ill be made
              to accomplish this ....ithin tho: next 90 days. «lOfdination delays may push its completion be)'ond
              that time period.

              WI'   ~ommrnd that     lhe Undrr Srcrrtar)' ror Intdlige.nct and Anal)'1Iis:

              Re.cemmtndation H6: Reduce overall Wlllehiisting Cell reliance on CQntmct ~l to avoid
              the ltppe:trnnce that CQntraetors are pcrfonning inherently governmental functions. and enhance
              efforts to replace existing contr:lCIOl'S with full-time f~'dernl employees.

              DHS Rt$pon.K: Concur. While contract officers assigned to the WLC do not exert direction
              and control of intelligence operations or detcnninc department policy and therefore do not
              perform inherently governm...ntal functions. DIIS acknowlcdges that the current operational
              situll1ion of the WLC could give rise to the potential appear-.lJlcc of contract officers performing
              such aClions. DI-IS benefits through the use of contmct ol11eers with specialized experience in
              this area but intel\ds to convert some contractor positions in FY 20 12 to lIehieve n bener balance
              betwecn governmcnt <lml contractor staffing in the WlC. The Department's ability to convert
              those positions will be driven by apprO\'al of its FY 20 12 budget request.

              To help fOf'CStall any erroneous conclusions about contractor duties within the WLC, the
              Dcpanment would also like to pro\'ide the following information. The WLC government lead
              determines whether component nominations meet minimum biogrnphie and derogatory
              requirements for wmchlisting, as provided in Appt:noli>. 9 ami 10 of the rsc WUlchli~ting
              Guiik",u (July 2010). Funher. the WLC is only tasked by the gO\'cnunent lead to rc-conlactthe
              nominator to elicit additional infonnation if a nomination is assessed to be inad..--quate. lbc




                                      SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                          Page 65 

                                     SENSITIVE SECURITY INFORMATION
Appendix C
Management Comments to the Draft Report



                                                                                                           -5-


              government lead makes the final determination regarding rejection of DHS component
              nominations.

              Recommendation #7: Leverage Department or Homeland Security component subject matter
              expertise and limit duplication of efforts among components and the Wu\chliSling Cell's
              analytical support stan:

              OHS Response: Concur. The Department appro:ciates the broad latitude provided by OIG to
              determine the best means of kvcraging DHS component subject matter expertise. The WLC
              leverages this expertise through extensive communication and collaboration with component
              :malytical support stalT at eBl', ICE. USCG. TSA. and USeIS. in addition to external partners
              su<;h as FBI. NSA, CIA, and NCTC. During the period between the conclusion of this review's
              fieldwork and publication of the draft l\'port, the WLC worked with DHS eomponcms and has
              noted no duplication of eflort. I&A believes that it has accomplished the spirit oftl'is
              recommendation and respectfully requests its closure.

              Recommendation #8: Coordinate and collaborate with external governmctU watchlisting
              partncrs to develop a standard encounter tool capable of automatically exporting and integrating
              information itUo external wmchtists.




              \Ve recommend lhat the Assistlmt Commissit)ner for the Office of Field Operations,
              Customs lIlIlJ Border PrOh~c1ion:

              Recommendation #9: Ensure adherence to standard operating procedures at the ports of entry
              for processing encounter packages and improve the quality and timeliness of submissions 10 the
              National Counterterrorism Center and Terrorist Screening Center.

              t)HS R~SI'0nse: Concur. Five GS-1801 National S<:Cllr;ty Specialist positions huvc been
              allocated to augment CUp's National Targeting Center-Passenger (NTC·P) starr who nx:ord and
              share the encounter paclages. Summer intern assistance has decreased the backlog of packages
              to less than 100 (as of lune 22, 20 I I). RequiremetUs for Ihe package arc sent to the ports of
              entry (PDEs) currently upon l'aeh encounter. specifying what items should be included. A luly
              22,2009 memo. entitlt.:d "Packet Requirements lor All Positive TIDE Encounters," was issued 10
              the licld outlining expectations for encounter packets, including subject items, timeframe for
              forwarding and possible repercussions for nOI complying with the n:·qucst. A copy oflhis memo
              will be submilled separalely. CBP believes that it has successfully implemented this




                                     SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                         Page 66 

                                      SENSITIVE SECURITY INFORMATION
Appendix C
Management Comments to the Draft Report



                                                                                                               - b-


              recommendation and respectfully reques1S closure ofthc recommendation. Supporting
              docwnentationto close this recommendation will be submitted separnldy for the 010'5
              consideration.

               W\" rl"commcnd thai thl" Under S«retary for Intelligenc\" and Anal)·sis:

              R«ommendation /1110: Ensure thatlhe Walchlisting Cell is pro"ided with adcqU;ltC Slamng and
              resources to conduct ad'·(lf1Ced analysis on all encounter packages and Homeland Intelligence
              Repons in a timely mannt.'I".




              Again, .....e apprttiatc this opponunily to re,·iew lUl<J wmmo:nt on the draft repon. [n addition to
              this response. technical comments and a sensitivit)· review wen: provided under separate CO"tT.
              The Depanmc:nt looks forward to wortinG with )'OU on future Homeland Security C11ga£CT1lenl5,

                                                               Sincerely.




                                      SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                          Page 67 

                                    SENSITIVE SECURITY INFORMATION
Appendix D
U.S. Government Nomination Process as Outlined in the




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
                                Its Efforts to Support Watchlist Maintenance

                                                       Page 68
                                    SENSITIVE SECURITY INFORMATION
Appendix E
DHS Watchlisting Cell Nomination Process




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance
 


                                                       Page 69 

                                    SENSITIVE SECURITY INFORMATION
Appendix F
Major Contributors to this Report

                             Marcia Moxey Hodges, Chief Inspector
                             Dagmar Firth, Senior Inspector
                             McKay Smith, Senior Inspector
                             Amy Tomlinson, Inspector




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 70 

                                    SENSITIVE SECURITY INFORMATION
Appendix G
Report Distribution

                             Department of Homeland Security

                             Secretary
                             Deputy Secretary
                             Chief of Staff
                             Deputy Chief of Staff
                             General Counsel
                             Executive Secretariat
                             Director, GAO/OIG Liaison Office
                             Assistant Secretary for Office of Policy
                             Assistant Secretary for Office of Public Affairs
                             Assistant Secretary for Office of Legislative Affairs
                             Administrator, Transportation Security Administration
                             Director, U.S. Immigration and Customs Enforcement
                             Under Secretary for Office of National Protection and Programs
                             Under Secretary for Office of Intelligence and Analysis
                             Commissioner, U.S. Customs and Border Protection
                             Commandant, U.S. Coast Guard
                             Director, National Targeting Center-Passenger
                             TSA Audit Liaison
                             CBP Audit Liaison
                             ICE Audit Coordination
                             US-VISIT Audit Liaison
                             I&A Audit Liaison
                             USCG Audit Liaison

                             U.S. Department of Justice

                             Director, Terrorist Screening Center
                             GAO/OIG Liaison

                             U.S. Department of State

                             Assistant Secretary, Bureau of Consular Affairs




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance 


                                                       Page 71 

                                    SENSITIVE SECURITY INFORMATION
Appendix G
Report Distribution

                             Office of the Director of National Intelligence

                             Director, National Counterterrorism Center
                             Chief, Terrorist Identities Group,
                              National Counterterrorism Center
                             Director, Analytic Enhancement Group,
                              National Counterterrorism Center

                             Office of Management and Budget

                             Chief, Homeland Security Branch
                             DHS OIG Budget Examiner

                             Congress

                             Congressional Oversight and Appropriations Committees, as
                              appropriate




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

              DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and
 

                                Its Efforts to Support Watchlist Maintenance
 


                                                       Page 72
 

                           SENSITIVE SECURITY INFORMATION

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.




                           SENSITIVE SECURITY INFORMATION
